<html>
<title> - THE COMPTROLLER GENERAL'S PROGRESS REPORT ON IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-162]
 
           THE COMPTROLLER GENERAL'S PROGRESS REPORT ON IRAQ

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 23, 2008


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                  U.S. GOVERNMENT PRINTING OFFICE
45-135                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mike Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, July 23, 2008, The Comptroller General's Progress 
  Report on Iraq.................................................     1
Appendix:

Wednesday, July 23, 2008.........................................    35
                              ----------                              

                        WEDNESDAY, JULY 23, 2008
           THE COMPTROLLER GENERAL'S PROGRESS REPORT ON IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Dodaro, Gene L., Acting Comptroller General of the United States, 
  Government Accountability Office, accompanied by Joseph 
  Christoff, Director, International Affairs and Trade, 
  Government Accountability Office...............................     4

                                APPENDIX

Prepared Statements:

    Dodaro, Gene L...............................................    39

Documents Submitted for the Record:

    GAO Report Securing, Stabilizing, and Rebuilding Iraq, 
      Progress Report: Some Gains Made, Updated Strategy Needed..    63

Witness Responses to Questions Asked During the Hearing:

    Dr. Gingrey..................................................   165
    Mr. Hunter...................................................   161
    Mr. Murphy...................................................   167
    Mr. Taylor...................................................   163
    Mr. Wittman..................................................    21

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

               THE COMPTROLLER GENERAL'S PROGRESS REPORT

                                ON IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, July 23, 2008.
    The committee met, pursuant to call, at 10 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Today the Armed Services Committee meets to 
hear from Mr. Gene Dodaro, the Acting Comptroller General of 
the United States. He is going to speak to us about the work 
recently conducted by the Government Accountability Office 
(GAO) and the GAO assessing progress in Iraq calling for new 
strategy to govern our efforts there.
    Mr. Dodaro is accompanied by Joseph Christoff, who I 
understand is present to answer questions but will not make an 
opening statement.
    Before I begin, I want to make an administrative 
announcement. The hearing will be followed by a classified 
briefing on work regarding the joint campaign plan that was 
conducted by the GAO. And that briefing will happen in 2212 
Rayburn. And the best guess is that it will start around 12:30. 
It will be at the secret level, so 9(c) staff are welcome to 
attend.
    Let me mention this, the GAO has done some excellent work 
for this committee, and I mentioned this to you Mr. Dodaro a 
few minutes ago. He has done some excellent work for our 
committee, as well as Congress as a whole, on the subject of 
Iraq over the years. And all of us want to thank you for those 
excellent efforts.
    The most recent report of Iraq continues the tradition of 
raising important questions that Congress as well as the 
Administration should be considering seriously. The recent GAO 
report comes to a simple conclusion that we need to develop a 
new strategy in Iraq. The report makes the case by noting that 
the New Way Forward strategy announced by the President in 
January 2007 is coming to an end with the departure from Iraq 
of the surge brigades and that we should be working on what is 
next. I posed the what-is-next question to General Petraeus and 
Ambassador Crocker when they were before this committee back in 
April. The answer was unclear.
    The next question we should consider, and I hope Mr. Dodaro 
will weigh in on is if we should be undertaking a new strategy 
in Iraq right now. And many, along with I, have long been in 
favor of changing our approach in Iraq. For the good of Iraq 
and the health of our military, we should be finding ways to 
take advantage of the Iraqi desire to have real sovereignty and 
hand over more responsibility for their security. This, of 
course, would provide a clear path toward redeployment of 
American combat troops from that country. This is what the 
Iraqis clearly want, and it is what the American people clearly 
want. Any new strategy in Iraq should take into account the 
Iraqi desire for more sovereignty as well as the health of the 
United States' military.
    We have talked about the readiness and the challenges of 
readiness in this committee so many times, as well as the 
competing demands in Afghanistan. It is worth asking, however, 
if it is the right moment for a full interagency effort to 
write a new strategy document. Iraq is undergoing a political 
transition. General Petraeus is conducting his analysis and 
evaluation of following the redeployment of the surge brigades. 
And America and Iraq are also deeply involved in negotiations 
on the Status of Forces Agreement (SOFA), which we will be 
hearing more about that in this committee very, very soon. 
Iraqi leaders have endorsed goals for the redeployment of 
American troops. I think that is a positive step.
    Ideally the Administration would have conducted a full 
interagency effort to develop a new strategy well in advance of 
the end of the New Way Forward. Unfortunately, they did not, 
and we are left trying to muddle through the current 
challenges. But we have to answer if pushing for a new 
strategic document that may well be obsolete by the time it is 
done makes sense, or if we are better off waiting for a short 
period of time. I hope this hearing will help clear up that 
issue.
    I thank Mr. Dodaro and Mr. Christoff again for being with 
us today.
    And I yield now to the gentleman from California, Mr. 
Duncan Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman.
    And thanks for holding this hearing. I want to join you in 
welcoming our guests.
    And I understand that the GAO undertook this effort on its 
own initiative. And I appreciate the willingness of GAO 
officials to take a hard look at the U.S. Government's approach 
to stemming the violence in Iraq and helping the government 
foster conditions for national reconciliation.
    In January 2007, President Bush outlined to the American 
people a new strategy for Iraq and called it the New Way 
Forward. Many of us liked this New Way Forward because it 
rested on the three essential pillars: political, military and 
reconstruction efforts to achieve a balanced approach to 
addressing the conditions in Iraq.
    Facts on the field and anecdotes from commanders and 
civilians in the field support recent reports that this 
strategy has achieved remarkable results. For example, by May 
2008, overall violence in Iraq dropped to its lowest level in 4 
years. Despite increases in weekly security incidents during 
March and April, due in large part to Iraqi-led operations to 
Basra, Sadr City and elsewhere, overall violence decreased to 
levels that were last seen consistently in April 2004.
    In June 2007, the average number of attacks throughout Iraq 
was over 1,200 per week. In June 2008, that number was 200 per 
week or about an 80 percent reduction in the last year.
    Incidents involving IED's, improvised explosive devices, 
have decreased over 70 percent in the last year. From January 
through June 2008, coalition forces found 85 percent more 
caches than during the same time frame in 2007. Oil revenues 
have expanded sufficiently, some of which are being used to 
support development and reconciliation programs. Oil production 
is likely to increase by 10 percent in 2008. The Iraqi economy 
is expected to grow by 7 percent in 2008. And lower inflation 
has boosted Iraqi purchasing power and provided a more stable 
environment for private sector development.
    Of the 18 benchmarks identified by the White House and 
endorsed by the Congress as measures of progress, we have 
received assessments that Iraq's efforts on 15 of these metrics 
are satisfactory. Only two, enacting and implementing laws to 
disarm militias and distribute oil revenues, are 
unsatisfactory. And those of us who sit here know full well how 
difficult it can be to pass contentious legislation.
    Clearly, the New Way Forward has helped to change 
conditions in Iraq for the better. The U.S. military surge met 
with success and the efforts by our civilian personnel in Iraq 
had begun to bear fruit in the political and economic arenas. 
We are on the right path.
    That said, I am sure that both General Petraeus and 
Ambassador Crocker have implemented the necessary tactical and 
operational course corrections along the way, for example, 
supporting the Sons of Iraq movement, which could not have been 
foreseen when the President unveiled the New Way Forward last 
year. As any good strategy would, it provided an overarching 
framework and enough flexibility to allow for the necessary 
modifications based on changing conditions on the ground. I 
believe that the smart people who are implementing U.S. 
strategies and policies in Iraq could continue to adjust their 
efforts in support of this strategy as necessary.
    So I wonder, gentlemen, in light of the fact that this 
strategy has worked to date and has provided a good solid 
framework for people in the field to deal with unforeseen 
changes and that we have had this very substantial reduction in 
violence, 80 percent reduction, why does GAO recommend to the 
United States during the last 6 months of an Administration 
that they develop and implement a new strategy? Why is it 
necessary? What greater insight could the commanders and 
civilians on the ground expect to gain from a new strategy that 
they are not getting currently? And finally, I note that 
earlier this year Chairman Skelton and I co-signed a letter to 
GAO asking you to look into U.S. efforts to encourage Iraqi 
progress on the 18 benchmarks. Although your report discusses 
Iraqi progress, it does not outline or analyze the whole of 
U.S. efforts, aside from mentioning U.S. financial 
contributions, as we had asked.
    And I hope you can provide comments on the efforts of those 
brave Americans who are making such a difference in Iraq. For 
example, I would like to hear your perspective on the efforts 
made by provincial reconstruction teams, transition teams, 
diplomats, and others to encourage Iraqi progress. So, again, 
thank you for being here.
    I join the Chairman in welcoming our guests.
    And I look forward to your testimony.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Mr. Dodaro, thank you, again, for your work in the GAO, and 
we welcome you, and you may proceed.

STATEMENT OF GENE L. DODARO, ACTING COMPTROLLER GENERAL OF THE 
UNITED STATES, GOVERNMENT ACCOUNTABILITY OFFICE, ACCOMPANIED BY 
 JOSEPH CHRISTOFF, DIRECTOR, INTERNATIONAL AFFAIRS AND TRADE, 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you, Mr. Chairman.
    Good morning to you, as well as the other members of the 
committee. We appreciate the opportunity to discuss today GAO's 
latest report on progress in Iraq and stabilizing and 
rebuilding the situation.
    In summary, our report notes that some gains have been made 
in implementing the key goals for the New Way Forward. Many 
challenges remain, and an updated strategy is needed.
    On the progress front, violence as measured by enemy-
initiated attacks is down about 80 percent from June 2007 to 
June 2008. It has gone from about 180 average daily attacks 
down to 30 in June 2008, just last month. Additionally, the 
number of forces, trained Iraqi security forces (ISF), has 
increased substantially from 323,000 in January 2007 to a 
figure now approaching 500,000 trained troops.
    Additionally, some legislation has been passed to return 
Baathists to government service, granting amnesty to detained 
Iraqis and also defining provincial powers.
    Now, much remains yet to be done. Eight of 18 provinces 
still need to be given the lead for security. Ten have been 
transferred so far. More effort needs to be given to training 
the Iraqi security forces so they could operate more 
independently without as much coalition and U.S. support.
    Additional legislative issues need to be attended to. 
Legislation establishing the legal framework for distributing 
oil revenues, for example, needs to be passed, as well as 
legislation for disarming the militias and for holding the 
provincial elections. While progress has been made in many of 
the sectors in oil and electricity and water, for example, much 
more work needs to be attended to there as well. For example, 
energy production this month in mid-July only met about 54 
percent of the demand in the country. Additionally, the 
ministerial capacities of Iraqi's government structure need to 
continue to be strengthened to enhance their ability to execute 
on capital investment plans that they have forward and make 
those investments come to a reality going forward.
    Now, looking ahead, we think an updated strategy is called 
for, for several reasons. One, many things have changed in Iraq 
since January 2007. We also think there are some limitations in 
the current plans of the agencies that need attending to. Also, 
the U.S. is negotiating a new agreement in light of the U.N. 
Mandate expiring at the end of this year. And I would point out 
that that expiration of that mandate will occur before a change 
in our Administration going forward. So I think it is important 
that we have an updated strategy that reflects whatever 
agreement is reached between now and then to replace for the 
U.N. Mandate going forward and also continue to address some of 
our open recommendations for building the capacity of the 
ministries to take on the full range of government services 
going forward.
    Now, while U.S. strategies have changed over this 
experience that we have had in Iraq, the one thing that has 
remained constant is the dedication and the commitment of U.S. 
personnel, both military and civilian. And I would want to 
close my opening remarks by just recognizing the extraordinary 
efforts put forth by our military and civilian personnel there 
and the many sacrifices that they have made.
    And with that, Joe and I would be happy to answer your 
questions.
    [The prepared statement of Mr. Dodaro can be found in the 
Appendix on page 39.]
    The Chairman. Thank you very much.
    You point out the necessity for a new strategy, and it 
raises two questions: Number one, would now be the time, or 
should we wait for a new administration? And second, what were 
the elements of a new strategy or what should the elements of a 
new strategy be? Would you answer both those questions for us?
    Mr. Dodaro. Yes, Mr. Chairman.
    First, we think an updated strategy is essential for a 
number of reasons. One, I mentioned the expiring----
    The Chairman. No, first answer my first question. Now or 
for a new administration?
    Mr. Dodaro. I am a big believer in stewardship, Mr. 
Chairman, and I think we are committing a lot of resources. I 
think you need one now. And I believe we are committing a lot 
of resources. We have a lot of troops deployed. We need to 
continue to build upon the progress that has been made, as well 
as address unmet goals going forward. And I am a big believer 
in the fact that we need to have continuity in government. And 
it would be important, from a stewardship standpoint, to have 
the best thinking of the current Administration to inform the 
next administration going forward and to assist as possible in 
the transition. So I think it is essential that the update be 
done now.
    The Chairman. That answers the first question.
    The second question is, what elements should be involved in 
the new strategy?
    Mr. Dodaro. There needs to be an update in terms of the 
goals that are expected to be achieved in terms of performance 
measures, the expected costs that are going to be incurred 
during this period of time, how we are going to measure 
progress in some of these other areas. So a lot of the unmet 
goals need to be addressed going forward. Also, I think that 
the legislative benchmarks that have been set are important for 
people to follow to make sure that the additional steps that 
are needed for political reconciliation there are accomplished 
during this period of time.
    And I would ask Joe to add if he has any other specifics. 
But I also note that the supplemental that just recently passed 
has a number of details in it in terms of Congress asking for 
particular reports from the Administration. Many of those 
detailed specifics in there is what we would like to see in an 
updated strategy as well.
    Mr. Christoff. I think, Mr. Chairman, the updated strategy 
should also take into consideration the continuing progress in 
the security area. We always track the number of enemy-
initiated attacks. Mr. Hunter is correct in noting the 80 
percent reduction since June of 2007. That is an important 
measure to continue to track. The continued training and 
equipping of Iraqi security forces and, more importantly, the 
numbers that are reaching the highest readiness level. 
Operational readiness level, one, is an important measure to 
track. And then, finally, on the economic fronts. Iraq has 
continuously promised to spend billions of dollars of its own 
oil revenues to reconstruct its country. And we found that over 
the past 3 years, they have spent about 24 percent of what they 
budgeted. And I think that is a continuing and important 
measure to track as well and to include in an updated strategy.
    The Chairman. Thank you very much.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, I agree with you that we want to continue to 
upgrade the Iraqi military forces, the 131 battalions or so for 
example that comprise the Iraqi army, but we are doing that. 
And we are doing that under the leadership of some very capable 
individuals who have seen all the problems and all the mistakes 
that can be made over the last many years in terms of how you 
train and equip a military that is comprised of the personnel 
who make up that Iraqi force. They have seen all the problems, 
all the hiccups, all the bumps, and they have managed to turn 
out from scratch an Iraqi military that is taking hold, that 
has undertaken initiatives of its own, some without American 
concurrence or support, and carried them out fairly 
effectively.
    So my point is, we have a fairly successful operation now 
with respect to training and equipping the Iraqi military. And 
no one would suggest that we seize that operation. So it is a 
little unclear as to exactly what new elements in this area you 
would recommend. Do you have any specific elements that you 
think we are not undertaking with respect to the training and 
equipping of Iraqi forces that we should now be embarked upon?
    Mr. Dodaro. There are a couple of issues here, a couple of 
specifics I would offer, Congressman Hunter. One is, there has 
been progress in bringing along the number of trained troops. 
But one thing that hasn't changed over the past year is that 
the highest operational readiness assessment level one, which 
is operating independently, that percentage hasn't changed. It 
has been about 10 percent over that period of time.
    So one area that we think should be addressed is, what will 
be done to try to move that percentage to a higher percentage 
to build that capacity? The other remaining issue has to do 
with the Sons of Iraq, as you mentioned, and the efforts to try 
to integrate them into the forces.
    Mr. Hunter. Okay. But let me just pursue that. To operate 
independently means that you need some of the what we call 
enablers like Medical Evacuation (MediVac) capability, aerial 
MediVac capability, fire support, including aerial fire support 
and artillery fire support. If you take other nations in this 
part of the world, a number of them that have been, are long-
established countries don't have what you would call the 
ability to operate with the same capability that we have 
inserted in that metric; i.e., a lot of them don't have robust 
aerial MediVac capability, never have, and probably never will. 
Nonetheless that doesn't mean that they don't have an effective 
military. But my question is, you say we want the Iraqi army to 
be all that it can be. We all agree, and our trainers all 
agree. But what new actions would you recommend for the United 
States to take to improve the army to a degree that is greater 
than what is already taking place, in other words to make the 
training more efficient or to get the army stand up quicker? 
Because nobody disagrees we want to stand up the military. But 
in fact, that is part of the President's plan and has always 
been: standing up the military, standing up the country 
economically, and ensuring that they are able to undertake 
these legislative initiatives, which, as we have noted, are 
very contentious in some cases. And they have undertaken 
legislative initiatives. But like other bodies, legislative 
bodies we don't have to mention right now, sometimes 
contentious issues don't get passed, right, and especially in 
the middle of a political season. So the question is, what do 
we--we all agree that we want to make the army as effective as 
possible as quickly as possible. But what things do you think 
that our military trainers aren't doing right now that they 
could be doing to achieve that?
    Mr. Dodaro. Well, it is not a question of us recommending 
specific actions. What we are talking about in this particular 
area, for example, is that there are some key reasons why the 
Iraqi armed services aren't able to operate more independently. 
One is a unified command and control structure. Another is 
having enough leaders to lead the brigades. And what we would 
offer, and one of the things that we are suggesting is, what 
strategies specifically are going to be pursued in order to 
achieve that and to get to a higher operational readiness 
assessment level?
    So those are the things we are talking about, Congressman. 
I would ask Joe to elaborate if he wants to on that particular 
point. But we are not attempting in our recommendation to give 
specific direction to our military leaders. We think they need 
and have done a good job in this area, but they need to have an 
update so that people can track the progress as to what is 
expected to be achieved over a reasonable period of time.
    Mr. Hunter. Okay. But let us go to the military leaders. We 
have been told by our leaders, our military leaders who are in 
charge of training, that one of the inadequacies has always 
been having enough field grade officers and officers and 
leaders at the higher level, along with having the need to 
establish a good noncommissioned officer (NCO) corps, right? 
And they have laid that out and said, this is where we have 
some inadequacies with the Iraqi army, we need to press harder 
and try to develop that officer corps and that NCO corps. 
Having said that, they are doing that. And so the real question 
is, whether we don't all agree with it, it is good to have, 
when you have got a division, it is nice to have a good 
division commander. And when you have got a brigade, it is good 
to have a good brigade commander. And we didn't restart Saddam 
Hussein's army, which had as I recall 11,000 Sunni generals in 
it, which I think right now would have created a massive mess 
if we had done what a lot of the armchair experts recommended, 
which was to take that army and maintain it. That would have 
been a disaster, when you had a body that is supposed to 
establish and maintain stability with 11,000 Sunni generals who 
have made their living beating up on Shiites to somehow now be 
a force for stability in a predominantly Shiite nation.
    So I think, although it took a lot of blood, sweat, and 
tears, I think building that army from scratch was the right 
thing to do. And Secretary Rumsfeld, in that case, did the 
right thing. And the armchair experts were wrong on that one.
    But having said that, we are building that officer corps 
and we are building that NCO corps, and we need to do more than 
simply say, you know, we need more good officers, we need more 
good NCOs. We know that. And we have programs and schools 
through which we are developing those folks. And a lot of them 
incidentally are being developed by operations. When you go 
into an operation and you have a captain or a major or a 
colonel who stands out, who leads his men, then that person 
needs to be promoted based on merit. And that is a difficult 
thing to do, as you may know, with regard to the culture. 
Sometimes these promotions are political. And so we are trying 
to develop a military where promotions are based on merit. But 
I think we are doing that.
    And I didn't see in this report solid, substantial 
recommendations as to how you do that better than the way we 
are doing it right now. I guess that is my question. What 
changes would you recommend to our military leadership that 
will produce more field grade officers and more good NCOs in a 
shorter period of time?
    Mr. Christoff. Mr. Hunter, I would talk about the need to 
plan for this enormous increase in the capacity of the Iraqi 
security forces that both the Iraqi Government and the U.S. 
anticipates over the next 18 months. Right now, we are at about 
495,000 Iraqi security forces that we have trained. The goals 
of the Iraqi Government is to try to get up to 646,000 over the 
next 18 months. Couple that with both our concerns and the 
Iraqi's concerns about having the training capacity to 
accommodate those 646,000 over the next 18 months and the lack 
of military academies within Iraq. They are certainly growing, 
and we are helping in that growth. But I think there is a 
concern about that capacity. You then couple it with the desire 
to begin over a longer term to integrate the 105,000 Sons of 
Iraq either into the Iraqi security forces or to civilian 
employment. And then you have the question of these emerging 
Sons of Basra groups that you have in southern Iraq, that you 
have in Sadr City, and how and to what numbers are they going 
to increase to? How will they be integrated? Who will pay for 
them is still a remaining question as well.
    Mr. Hunter. So you would recommend, one hard recommendation 
would be to increase the number of academies turning out 
officers and NCOs.
    Mr. Christoff. And that is currently what is a goal at 
least both on the part of the U.S. and the Iraqis. It is in the 
most recent 9010 report as well, the recognition that it needs 
to be done.
    Mr. Hunter. So you are saying that we are in the process of 
increasing the number of academies.
    Mr. Christoff. We recognize it as a problem, and that was 
in the June 9010 report.
    Mr. Hunter. That is kind of my point here. Our guys, I 
think General Petraeus understands the need to have more good 
officers and more good enlisted guys. And I think, as a guy who 
initially was charged with and was in charge of the training of 
Iraqi soldiers, or at least been through the entire gamut 
starting from scratch, what would you have him do that you 
think he is not doing now in terms of expanding academies?
    Mr. Christoff. I think it is focusing on trying to develop 
and anticipate how you are going to accommodate roughly an 
additional 150,000 Iraqi security forces (ISF) that have to be 
trained? How are you going to integrate 105,000 Sons of Iraq? 
How are you going to integrate emerging Sons of Basra, as well, 
if that is a decision that needs to be made?
    Mr. Hunter. Do you know that they are not doing that? 
Because obviously they are sitting there with the current 
status of forces and with the projections of increased 
accessions into the armed services. And they understand that, 
that they are going to have more folks coming in. And they have 
been doing that since we stood up the force as a very small 
force with just one or two battalions who were really capable 
of maneuver. So we have gone a long way. But do you know that 
they are not in fact doing that, that is preparing for this, 
the continued expansion?
    Mr. Christoff. One of the challenges that even the 
Department of Defense (DOD) states in its 9010 report is that 
there is not a cohesive plan to try to take into consideration 
merging the Sons of Iraq and future Sons of Basra into the 
Iraqi security forces. And that kind of cohesive and integrated 
plan still needs to be developed.
    Mr. Hunter. But how about the expansion up to this 600-some 
thousand?
    Mr. Christoff. One of the interesting challenges that I 
have talked to military officials about is the oftentimes 
unexpected increases in the number of authorized levels that 
the Iraqis desire on the part of the number of security forces. 
So, yes, they are aware of the 646,000 goal that they want to 
achieve, but they are also aware of how the Iraqi Government 
oftentimes increases what their authorized levels are, and then 
they have to adjust and plan for that.
    Mr. Hunter. Okay.
    Well, thank you, and thanks for your testimony. What I 
would like to see is if you have got some hard recommendations, 
for example, more academies than they have now; having to some 
way get a faster throughput of NCOs; hard recommendations that 
you think would advance the goals. But it looks to me like the 
goals are pretty well-stated in terms of standing up the Iraqi 
forces, getting them into the fight. They have actually gotten 
into the fight in places where they didn't consult us about 
getting into the fight. And that to me is a good indicia of a 
government that is becoming more capable and more autonomous. 
And that military is standing and fighting now where in years 
past they did not stand and fight. And so I am still kind of 
having a difficult time understanding what you think General 
Petraeus and the commanders in the theater aren't doing in 
terms of standing up the Iraqi army that they could be doing 
because they all agree with the goal of having a bigger 
stronger military with more officers and more NCOs.
    Mr. Dodaro. Congressman, we would be happy to provide for 
the open record some of our suggestions. And also, this is an 
area we would like to discuss additionally with you in a closed 
session.
    Mr. Hunter. Okay.
    Do you folks have military expertise in GAO? Do you have, 
for example, a counterpart to General Petraeus or some folks in 
his chain of command who are working the training piece?
    Mr. Dodaro. Well, we wouldn't profess to have that caliber 
of expertise in GAO, but we have a number of people who have 
experience. And we have a lot of people who understand how to 
evaluate the plans and activities both, in the military and the 
civilian side.
    Mr. Hunter. Okay. Because we want to bring them in and 
say--I suspect we would bring them in and say, you guys need 
more NCOs and more officers, and they are going to say we kind 
of know that, and we have been doing it for years, and this is 
how we do it.
    Mr. Dodaro. Our only point in all of this is that, and we 
can talk a little bit, it would be better to talk about this in 
the next session.
    [The information referred to can be found in the Appendix 
beginning on page 161.]
    Mr. Hunter. Okay. Thank you Mr. Chairman.
    Mr. Taylor [presiding]. Thank you, Mr. Hunter.
    Gentlemen, I guess I have become a reluctant supporter of 
the Sons of Iraq policy. I have got to admit being taken back 
and asking General Petraeus outright, are we bribing these guys 
not to shoot at us? If my memory is right, his answer was, 
yeah, would you rather my kids coming home in body bags, and I 
said, no. So help me with a couple of things. A typical Son of 
Iraq I am told is paid about $300 a month. Is that correct?
    Mr. Dodaro. That is correct.
    Mr. Taylor. I am curious, does that money flow directly 
from the government, or does it normally flow through a tribal 
sheik?
    Mr. Christoff. My understanding is that there are contracts 
that we have with the tribal sheiks who are then responsible 
for paying the individual members of the Sons of Iraq.
    Mr. Taylor. Given just a kind of human tendency for the 
loyalty to follow the money, is anyone actually tracking then 
where is the loyalty? Is it to the Iraqi Government? Is it to 
that sheik? And I guess a fair follow-up is, I am presuming 
that that money is still American money that is paying the 
sheiks. Has there been any plan articulated--and I really think 
one sign of success will be when that Iraqi money starts paying 
the sheiks not to shoot at us and the Iraqi army. Is there a 
timeline to do that?
    Mr. Christoff. In terms of the Sons of Iraq, those are 
predominantly Sunnis in Anbar Province. A majority of the money 
that is going to pay for them would be coming out of the 
Commander's Emergency Response Program (CERP). When we go to 
the closed session, I think we can talk about the Sons of Basra 
and try to get at the latter question of who is or is not 
paying for them.
    Mr. Taylor. And I don't think you are being evasive, but I 
just don't think you answered my question. My question is, I 
would think one of the mileposts for success would be when the 
Iraqi Government starts paying the sheiks instead of our 
Government paying the sheiks. Has there been a proposed 
timeline to do that? Has that discussion even come up?
    Mr. Christoff. I am not familiar with a timeline. But there 
is the long-term goal of transitioning these Sons of Iraq----
    Mr. Taylor. A long-term goal is wonderful. It is like me 
saying I will get back to 165 pounds. I am not getting there.
    Mr. Dodaro. My understanding from our staff is that we will 
be able to provide you an answer to that in the next session.
    Mr. Taylor. A lot of things--some great questions were 
asked by former Chairman Mr. Hunter, but almost everything he 
talked about comes back to money and the need to fund those 
schools, the need to fund those troops, to pay for those 
officers. I am curious, if you have, to what extent you have 
tracked Iraqi oil revenue and how much of the funds--you 
apparently have tracked how much oil is leaving the country. I 
am curious if you are tracking how much money is flowing back 
to the central government.
    Mr. Dodaro. We have an effort right now to outline the 
increased revenues associated with the oil production. I will 
ask Joe to give a little bit more about the specifics. But we 
hope to have a report out later this month, Congressman, that 
will illuminate a lot of those issues.
    Mr. Taylor. Well, I am curious, though, is 80 percent of 
the money making it back to the central government? Is 90 
percent of the funds that should be making it back?
    Mr. Dodaro. We are still doing some of that work so it is a 
little premature for us to be able to answer the questions now. 
But rest assured that we are looking at that issue, and we are 
going to provide a report.
    Mr. Taylor. With all due respect, sir, I think that is the 
issue. I think that as far as paying the sheiks, as far as 
rebuilding the infrastructure, building the schools, the 
electricity, all the things that we know are making an average 
Iraqi angry at us--the lack of electricity, the lack of water, 
the lack of sewer, the lack of stability--all those things get 
fixed at a cost. Iraq has the ability, as several of the 
Administration witnesses told us prior to the war, to pay for 
this themselves. They obviously are not. So the key question 
is, to what extent are we tracking those revenues to see to it 
that they are properly flowing back to the government that they 
should flow back to.
    Mr. Dodaro. Let me ask Joe to explain what we are currently 
doing.
    Mr. Christoff. We are completing work that we are doing on 
our own authority, but that Senator Levin asked us to 
specifically look at, in which we will provide you with all of 
the Iraqi oil revenues, a tally of how much has been generated 
from 2004 through 2008, what have they spent that money on in 
terms of their expenditures at the national level, the 
provincial level, what has been the accumulated surplus as of 
the end of December 2007, as well as the projected revenues for 
this year and the projected surplus for this year as well.
    [The information referred to can be found in the Appendix 
beginning on page 163.]
    Mr. Taylor. Last question is, a long time ago, some friends 
of mine in the Special Forces community pointed out that they 
thought it was a terrible idea for our troops, and in 
particular our senior officers, to have moved into the palaces. 
They thought from the point of view that you start to look like 
an occupier, that those palaces were signs of oppressions, that 
terrible things happened in those palaces when Saddam ran that 
country, that people were living in poverty, but Saddam was 
living on a hillside in a palace. So, for a lot of reasons, 
they thought it was just a very bad move for our forces to move 
into those palaces. Has any plan been articulated to get our 
forces out of those palaces? Is that even being discussed?
    Mr. Christoff. I don't have any details on that, sir, other 
than the gradual move from Saddam's main palace over to the new 
U.S. embassy. In terms of getting the diplomatic and part of 
the U.S. military forces that are at the main palace over to 
our new U.S. embassy, that transition is occurring.
    Mr. Dodaro. Congressman we will look into that issue and 
provide you an answer for the record.
    Mr. Taylor. I am told that the Water Palace alone, the 
citizens of the United States have spent $30 million to make it 
look pretty. Again, that is a heck of a lot of money anywhere, 
and it is particularly a heck of a lot of money back in Bay St. 
Louis.
    [The information referred to can be found in the Appendix 
beginning on page 163.]
    Mr. Taylor. The Chair recognizes Dr. Gingrey.
    Dr. Gingrey. Mr. Chairman, thank you.
    Mr. Dodaro and Mr. Christoff, I wanted to get back into the 
issue of the security forces, Iraq security forces, in regard 
to their level of preparedness. And of course, their minister 
of defense suggested in January that he believed they may be 
able to take responsibility for internal security as early as 
the first quarter of 2009. In your view, what would it take to 
make this a reality?
    Now, let me expand that question a little bit, too, because 
not only do they need to take control of the internal security, 
but also they need to be able to secure their borders with 
Syria, certainly with Iran. And a further extension of the 
question is, we have heard for a long time that the police 
force particularly was ripe with corruption. There were a lot 
of problems there. And just kind of give us an assessment of 
whether or not you think that the Iraq security forces, 
including the military and police, are at a level that they can 
take control by the first quarter of 2009, given that we 
haven't seen a lot of assurances that they can control their 
external security, their borders, and that there is in fact a 
lot of corruption, particularly within the police force and 
touch on the question of the infiltration possibly of Iran into 
the Iraq security forces and what problem that will present.
    Mr. Dodaro. Let me ask Joe to respond.
    I am not sure that we can give you a prediction. I am not 
sure that we can give you a prediction along the line of your 
first question.
    I would just note that General Petraeus's statement before 
this committee and our work both indicate that additional 
effort is going to be needed to make sure that the Iraq 
security forces can operate on their own. And I think that the 
issues, the second part of your question in terms of Iran, I 
think we would be best answering in the next session of this 
committee, in the closed session.
    Dr. Gingrey. Mr. Christoff.
    Mr. Christoff. In terms of the Iraqi security forces and 
the transition, right now, we do have an ongoing review in 
which we are looking at the operational readiness assessments 
at the battalion level to try to get a better understanding of, 
within those assessments where are the limitations and where 
are the capabilities in terms of the logistical capabilities, 
the manpower, the training. So that is an ongoing review.
    In terms of transitioning, that remains a goal of both the 
United States and the Iraqi Government, to transition all 18 
provincial governments so that they are able to control the 
security situation within their own provinces. And that still 
is--the timeline is still for January of 2009 to transition at 
least all but one. There is one in which there is still some 
disputed territories that have to be resolved before a timeline 
can be set for that transition.
    Dr. Gingrey. I want to go back to a statistic that you gave 
us in your testimony, Mr. Dodaro, regarding the energy and that 
I think you said maybe 54 percent. Compare that level to the 
level of electricity and other infrastructure needs of the 
people of Iraq under Saddam and also shortly after ``Shock and 
Awe'' phase of this operation.
    Mr. Christoff. Under the former regime, electricity in 
particular was a noticeable disparity where you had most of the 
electrical power that was being provided to the central region, 
the Sunni-controlled regions, oftentimes at the expense of the 
Shi'a south and the Kurdish north. I don't have actual numbers 
on that in terms of the statistics. But, right now, you have 
about 10 hours of electricity that is provided in the Baghdad 
area. You have got more in some of the other areas, roughly 
between 11 and 16 hours of electricity.
    Dr. Gingrey. The reason I bring up the question, because, 
when you throw out a figure like that, it would suggest that 
things are really bad infrastructure wise and that there is not 
water and not electricity and people are suffering. You have to 
put it in the proper context and say, well, how bad was it 
before. And if before it was 30 percent and now it is 54 
percent, then we have made some significant progress. Now, 
granted that we would like for it to be 95 to 100 percent. But 
I mean, I ask you that question. I think it is very important 
that you try to give us that information so that we are 
comparing apples to apples.
    Mr. Dodaro. Congressman, we would be happy to go back and 
take a look to see what information exists to put it in the 
proper context. But in the context of my opening statement, I 
mentioned it in the context of challenges that lie ahead. And 
certainly the goal was to try to close that gap between demand 
and supply as much as possible. So I was putting it in the 
prospective area.
    Dr. Gingrey. Right. Not implying then that progress had not 
been made in this area.
    [The information referred to can be found in the Appendix 
on page 165.]
    Mr. Taylor. Doctor, there will be a follow-up round.
    The Chair recognizes another doctor, Dr. Snyder.
    Dr. Snyder. Thank you Mr. Chairman.
    Good morning gentlemen.
    I have a couple of questions. You talked about this a 
little bit, but about a year ago or so, I met with someone who, 
we were being a little bit critical of Iraqi elected officials, 
and he said, lighten up on the Iraqi elected officials, we have 
no idea what they are going through, you don't even know if you 
or your family will survive when you go off to work each day; 
it is just a very tough environment to work in. Your report 
showed some sensitivity of the Iraqi Government on this issue 
of their ability to spend the capital budgets. One of the 
frustrating things for us, and I think the American people, is 
we don't understand; there seem to be some revenues there, 
substantial amounts of money, but they don't seem to being 
spent appropriately. I thought in your report you showed some 
sensitivity in terms of staffing and some others. Would you 
flesh that out a little bit more about why you think there is a 
delay in spending some of those dollars, and where this is 
going?
    Mr. Dodaro. There are several factors that are influencing 
that Congressman. Number one, over the past several years, 
there has been the security situation itself and being able to 
get out and initiate projects. The other thing is the 
infrastructure and the procurement systems and the things that 
are in place to actually execute on the budget. There is some 
bureaucratic systems that need to be streamlined. But also 
there is the capability of having enough people that are 
trained and have the expertise to be able to do it as well.
    Joe might add to that list, but I know that those are at 
least three things that we have recognized as some of the 
factors that are impeding their ability to execute on their 
capital budget.
    Dr. Snyder. I would like you to add to that list, but also 
talk about how that is going to get solved.
    Mr. Christoff. The United States, we have spent probably 
about $450 million on what we term ministry capacity-building 
efforts within Iraq. So this is where we have advisors and 
contractors that are trying to teach the Iraqis how to put 
together a financial management system, how to do good 
budgeting procurement, establishing personnel systems. So there 
are efforts apart of the United States Agency for International 
Development (USAID) and the State Department and for the 
Ministries of Interior and Defense, our Defense Department, 
that are working with the different central ministries to try 
to help them with these kinds of capacity development efforts.
    Mr. Dodaro. And one of the things along that line, 
Congressman, and this goes back to earlier questions, too, 
about specific recommendations we have advanced for an updated 
strategy. We do have a recommendation in the past of the fact 
that the U.S. Government needed an integrated strategy in order 
to build the capacities and the ministries and also to help 
support the Iraqis in developing an energy plan. And they are 
beginning to move forward on those recommendations, but those 
need to be fleshed out further as well.
    Dr. Snyder. I think it is fair to say, we obviously are not 
100 percent perfect ourselves in that kind of procurement as we 
read these tragic stories about electrocutions of our 
personnel, and if it is a contracting problem, and some of the 
other issues that we have had that probably Mr. Waxman's 
committee has brought out.
    I want to ask, and maybe, Mr. Dodaro, you can spend 
whatever the rest of whatever time I have to talk about the 
DOD's response to your report, which was they didn't seem to 
agree with much in it, and then your response to what they had 
to say, if you would talk about those disagreements.
    Mr. Dodaro. Sure. There were a couple disagreements with 
regard to some of the metrics that we were using in the report. 
For example, in the oil production area, we compared it to a 
U.S. goal of three billion barrels per day. They felt that that 
wasn't the right metric. Our counter to that was, that is the 
metric that has been used in all the U.S. reports, particularly 
by the Secretary of the Army, in comparing oil production over 
time. We recognize that it had improved, but that was the 
specific goal there. They mentioned the electricity area that 
Congressman Gingrey mentioned. We mentioned, well, that has 
been the goal, is to try to increase demand, or increase supply 
as a reflection of demand over there in order to help foster 
economic development and growth. So we countered their concerns 
about some of the metrics that we are using. We felt the 
metrics we were using were the proper ones and had been used 
consistently by the U.S. Government of providing these reports 
before.
    Now, with regard to the updated strategy, they disagreed. 
They thought that they had a good strategy and that they were 
making refinements as necessary going forward and that the 
joint campaign plan that they had was really the strategy that 
they were following. We countered that argument by saying, we 
believe that that campaign plan had some limitations that we 
had discussed in a classified report, which we are going to 
discuss with you all in the next session. So we can carry that 
discussion into that session.
    Dr. Snyder. Thank you.
    Mr. Taylor. The Chair recognizes Mr. Hayes.
    The Chair recognizes the gentleman from North Carolina, Mr. 
Hayes.
    Mr. Hayes. Thank you, Mr. Chairman.
    I didn't know my time had come up.
    Good morning, gentlemen. Thank you again for being here.
    Several months ago, David Walker was here and gave us an 
update. One of the things that he said was that he evaluated 
the benchmarks that were available, but he felt like there were 
much better benchmarks that would give a better picture of 
where we were progress wise. And unfortunately, Mr. Walker has 
left to the private sector. Certainly a gentleman such as you 
would respect very much.
    Would you pick up that line of questioning and talk to me a 
minute about your own opinion, again based on your experience 
on the ground, as to what additional--and make very clear, I am 
not in any way proposing to criticize the benchmarks that you 
have evaluated--but how can we take this evaluation a little 
further, and are there things that you feel like we ought to be 
looking at and talking about that would give us a clearer 
picture of where we are and what the way forward looks like?
    Mr. Dodaro. I will ask Joe to elaborate on this a bit.
    But, first of all, we in this update took a broader view of 
the situation there by looking broadly at the security area, 
broadly at the legislative field and as well as in the economic 
and infrastructure development that is necessary going forward.
    So we think some of the benchmarks, for example, are rather 
limited in the economic and infrastructure development area. 
And so that is an area where there could be some additional 
work that could be done to set those up. But those again are 
going to be largely driven by the capacity of the Iraqi 
Government to move forward in those areas. And, therefore, our 
recommendation to build more capacity and that the U.S. help 
build capacity in those ministries is very important going 
forward. We think the legislative benchmarks that have been 
tracked are the right benchmarks because they go toward 
progress and political reconciliation, and so we would advocate 
that those continue to go forward. We do think, in the security 
area, the benchmarks need to focus on building the capacity of 
the Iraqi security forces. And there are some in that arena but 
there could be others along the lines of some of the questions 
that we were talking about earlier with Congressman Hunter.
    But let me ask Joe if he has any additional thoughts.
    Mr. Hayes. Thank you.
    Joe.
    Mr. Christoff. I think an interesting discussion that we 
can have in the closed door session, sir, is looking at the 
joint campaign plan. The joint campaign plan is a conditions-
based campaign plan. And not going into the details of that 
classified plan, but it does offer another venue by which one 
can measure progress.
    Mr. Hayes. Okay. Carrying the discussion forward a little 
further, Mr. Hunter very appropriately mentioned the fact that 
training up of an officer corps is a complicated, complex but 
very necessary part of the process going forward. And 
noncommissioned officers is something that was a concept 
completely foreign to I think both the Iraqi Government. And I 
think Dr. Snyder mentioned the fact that our criticism of the 
Iraqis in light of what they are doing, although it may be 
justified, were there things that you specifically saw in terms 
of Iraqi leadership, both elected and otherwise--in this 
country, we have elected leadership, appointed leadership and 
others as well--what did you see in your evaluation that gave 
you reason to be optimistic about the way forward, aside from 
the reduction in violence, which I think everybody acknowledges 
now? What did you see in terms of the culture now with elected 
officials that have never had them before, and how do you 
factor that into your evaluation process changing from one guy 
at the top who says who lives and who dies to an elected group 
of officials who decide how they are going to order their lives 
together? Kind of opine on that a little bit for me if you 
will.
    Mr. Dodaro. I think basically, in that arena, obviously, 
Congressman, it is a huge change and a shift to the government 
structure that they are now pursuing. I think most of the 
assessments, both in the security area as well as in some of 
these other areas, have all indicated the difficulty associated 
with making that transition. The areas that we cited as some 
progress going forward in terms of the legislation to at least 
allow for some return of the Baathists to the government was an 
encouraging sign. The amnesty legislation was an encouraging 
sign, as well as defining the powers in the provinces.
    I think a real test will be getting through this new 
election law to allow for the provincial elections to take 
place. As you noted, in press accounts, there was some movement 
on that yesterday, but there is some question as to whether or 
not it will indeed be certified to move forward.
    Mr. Dodaro. With regard to the security area, I think that 
the increase, the relatively large increase, in the last year 
in the numbers of trained troops I think provides some basis 
for encouragement moving forward.
    But in the security area, we would agree with General 
Petraeus and Ambassador Crocker that the situation still 
remains rather fragile and potentially reversible.
    But those are my thoughts on that issue, and I would ask 
Joe if he wants to add anything.
    Mr. Christoff. I think that you bring up an interesting 
context point, in terms of looking at how Iraq has moved from a 
dictatorship, effectively, to a multi-party kind of decision-
making structure. I mean, even the presidency, the executive 
branch is split, with a Kurdish President and two vice 
presidents, one Sunni, one Shi'a. Then you have this entire new 
Council of Representatives. You have an emerging judiciary; at 
best we could call it emerging. And so that is a very, very 
different context from what Iraq had prior to 2003.
    Mr. Hayes. Thank you, Mr. Chairman. I think my time is up.
    I wonder if the Iraqis have a GAO equivalent looking at our 
ability to pass an energy package?
    Mr. Taylor. The Chair recognizes the gentlewoman from 
California, Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    Thank you both for working over these long several years.
    During the course of the hearing, you said several times 
that we are going to have to discuss that in closed session. 
And that concerns me a little bit because I think that we have 
a role to play in oversight, and I am wondering to what extent 
some of those areas in which we are not able to discuss here 
today are ones that you would have some question about, whether 
they are not those who had fallen in an area that that would be 
a problem.
    Mr. Dodaro. Well, basically, I mean, at the GAO, we do not 
have classification authority. By law, we need to follow the 
agency classification requirements. And I might add we have an 
impeccable record of adhering to the guidelines that are set 
for classified and other sensitive information.
    So, you know, we just follow what the agencies decide to do 
because they have a broad picture on this from a foreign policy 
standpoint, a military operation standpoint. We respect that 
and adhere to it and try to provide the venues.
    We have provided probably more classified reports on this 
subject to the Congress to help it with its oversight capacity 
as probably any other area I can think of in recent times.
    Mrs. Davis of California. Are there some areas in this 
discussion, though--it seems like we do want to know a little 
bit more of those areas. And I understand that you can't cross 
those lines. But I am, again, just questioning our ability to 
provide the oversight when there isn't that opportunity to 
really tackle it in an open fashion.
    Mr. Dodaro. Right. Well, what I would suggest, as a course 
of proceeding, is we are happy to spend as much time as we can 
with you in the closed sessions. But it is really up to the 
Congress to then deal with the Administration on what 
information they think should be declassified and could be 
discussed in an opening setting. I mean, we don't get in the 
middle of that debate.
    Mrs. Davis of California. Thank you.
    We talked a little bit about what some of those benchmarks 
might be. And one of the areas that you didn't look at--and I 
can understand that, but I wonder the extent to which you think 
this is something worthwhile--are the number of Iraqis that are 
returning to Iraq and the situation that they are experiencing 
in the countries in which they have gone to and tried to find 
work, in many cases, not able to do that.
    How are we to evaluate that? And do you think that is a 
reasonable benchmark to look at and to acknowledge the extent 
to which many professionals and others who are needed so badly 
in the country are beginning to come back and that will 
hopefully be a part of the country in the future?
    Mr. Dodaro. You touch on an important dynamic, and I am 
going to ask Joe to explain. We are doing some work looking at 
the refugee issue and some of these other areas, so I will turn 
it over to him.
    Mr. Christoff. I think even in the Intelligence Community, 
without going into classified, there is a recognition that 
internally displaced people (IDP) flows and refugee flows are a 
reflection of the security condition in a country. And so, when 
you have 2.7 million Iraqis that have been internally 
displaced, 2.2 million that are in surrounding countries that 
have become refugees, that is an important indicator and 
benchmark of their assessment of the extent to which Iraq is 
secure.
    I spent some time with refugees in Jordan last month, and I 
am going to Syria. Thankfully with the approval of the Syrian 
Government, we are going in a few weeks to talk to the 
predominantly Shi'a refugees, the poorer refugees that are in 
Syria. The ones in Jordan that we met with were predominantly 
Sunni, a little more well-off but still in dire needs.
    And I agree, and that is the reason why we have an entire 
review and engagement looking at IDPs and refugees.
    Mrs. Davis of California. At this time, what could you 
share with us, in terms of the way in which you might evaluate 
the security by virtue of the number of people who are 
interested in flowing back? And also their ability to go back 
to their communities that they lived in for so many years?
    Mr. Christoff. Sure. One of the key questions that we are 
going to be discussing with the internally displaced 
coordinator in Baghdad is the opportunities that those Iraqis 
who do return would be able to go to the homes that they left. 
And also a very recent proposal in the past couple days that 
the Council of Representatives might be providing some kind of 
a package. I have heard up to $8,000 that is in the most recent 
State Department weekly status report, to provide to those 
families that decide to return to Iraq.
    So those are the kinds of many issues that we are looking 
at. We are also holding discussion groups with a cross-section 
of refugees that the United Nations High Commission on Refugees 
(UNHCR) has put together for us in these groups that we have 
had, both in Jordan and Syria.
    Mrs. Davis of California. Thank you. We look forward to 
hearing from you. Thank you very much.
    Mr. Taylor. The Chair thanks the gentlewoman.
    The Chair recognizes the gentleman from Virginia, Mr. 
Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    One question. You know, when we discuss essential services 
in Iraq and the progress that is being made in delivering these 
services, there is a lot of talk about the different metrics 
that we should use to evaluate them. I would like to know what 
your thought is about the best metric to do that.
    A lot of times, the metrics we talk about are hours of 
electricity provided, but there needs to be some association, I 
think, with the level of satisfaction that citizens in Iraq 
have. And that, I think, relates back to the legitimacy of the 
government there.
    Can you let us know what you think the metrics that we are 
using, if they are adequate? Are there other metrics we should 
be using? And then how should Congress be evaluating the 
progress there in Iraq?
    Mr. Dodaro. I think some of the metrics that have been used 
so far--you know, clean water supplies, electricity demand, oil 
production--are the fundamental ones that you would want to 
start with. But they are going to have to become more 
sophisticated over time and really, I think, be set by the 
Iraqi Government themselves and to try for us to help them 
develop the capacity to set their own metrics and to then be 
accountable to their citizens for delivering on those metrics 
going forward.
    That is why it is real important, though, to get the 
ministries' capacities developed to able to execute on some 
fundamentals about their capital budget. Because if they can't 
execute on the capital budget to build the infrastructure and 
maintain it and keep it up to date, they really don't have too 
much ability to get more sophisticated in the measures.
    So I think as a starting point they are fine the way they 
are now, but a lot could be done, as you point out.
    Mr. Wittman. I am just wondering, too, in the future, 
should Congress be changing our evaluation metric, as far as 
success in Iraq, maybe even before the Iraqis decide to change 
that? Because, ultimately, I think that has a down-the-road 
effect on our efforts there.
    Mr. Dodaro. I think that has to be linked to the funding 
decisions. Right now, we are at the end of the phase where the 
U.S.-funded infrastructure developments are taking place and 
the Iraqis are expected to pick up more of the funding for 
those infrastructure developments.
    So, you know, my feeling would be, as long as the U.S. 
isn't funding the infrastructure developments, we ought to be 
helping the Iraqis build the capacity, set their own metrics, 
and to spend their own money to make improvements in those 
areas.
    Mr. Wittman. Back in May, Ambassador Crocker released his 
assessment of the process, and he utilized about 18 different 
levels of achievement there. I was wondering, did you agree 
with his assessment? And can you tell us where you might agree 
or disagree? And do you believe that those metrics of 
achievement are adequate? And where are we in that process, 
from your viewpoint?
    Mr. Dodaro. We really haven't systematically gone through 
his assessment yet. And we would be happy to do that and 
provide it the record. They really used a different approach 
than what we have used in the past of whether the benchmark has 
been met or not met or partially met and looked at in terms of 
whether or not satisfactory progress has been made or not. So I 
would be happy to provide that for the record.
    Mr. Wittman. Yeah, I would be interested to know that. 
Because it seems like if we are going to be collectively 
measuring progress in Iraq, we all ought to be on the same page 
about how we are measuring that. It seems to me to be a little 
disconcerting if Ambassador Crocker is using a different set of 
criteria and the GAO is maybe using something different.
    So I would really like for you all to look into that and 
make sure we are all evaluating based on the same set of 
criteria. And then whatever level of success is being achieved, 
we can communicate that without having five or six different 
sets of criteria being used by different folks that are there 
in the country doing a variety of different things.
    Mr. Dodaro. No, that is an excellent point. And it is also 
why we are advocating for an updated strategy, so it is clear 
what goals we are all trying to achieve and how we are going to 
measure progress. And that is one of the areas that I think 
greater clarity could be provided in an updated strategy.
    Mr. Wittman. I agree. I think that is critical to the 
effort. So I would urge you, if you can, to take Ambassador 
Crocker's 18 goals there and at least integrate them into your 
effort to evaluate. And then maybe that can be used as a 
framework for going forward to setting the strategy to evaluate 
success.
    Mr. Dodaro. Some of those are the same ones we are looking 
at, particularly the legislative benchmark areas and some of 
the security ones and economic ones as well.
    But, I mean, I think the question about how you measure 
progress has been one that has been nettlesome since the 
beginning here and continues to be so. But I think improvements 
in the clarity of the strategy could help.
    [The information referred to is classified and retained in 
the committee files.]
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Taylor. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Connecticut, 
Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Looking at your report, if I had to say what part of the 
strategy needs to be changed the most, I mean, it seems like 
the biggest weaknesses have been in the political arena, in 
terms of the failure to address the big three legislative goals 
that were set out as a benchmark by both the Administration and 
GAO a year and a half ago.
    And I guess the question I have is, in terms of a new 
strategy or a new approach, should we be looking at a different 
way to move these issues forward outside of the Iraq 
parliament? I mean, is that really a process that we can really 
count on to deal with the issues of hydrocarbon law or sharing 
of oil revenue, you know, dealing with the constitutional gaps 
that still exist in the Iraqi Constitution?
    I mean, obviously, this is a very expensive process that we 
have been going through for the last 18 months, in terms of our 
country's resources and troops. And a lot of it hinges on 
whether or not this political institution really is up to it, 
in terms of resolving these issues.
    And, again, you were not very specific in terms of what you 
would recommend as a new strategy for dealing with the 
political stalemate over there. And I was wondering if you 
wanted to address that.
    Mr. Dodaro. You know, basically, the Iraqi Government has 
moved to a self-governing, self-determination process over 
there, and it is really up to them to decide how best to move 
forward in that arena. I think the decisions for the United 
States is what kind of a level of investment are we going to 
continue to make going forward.
    So we didn't really make any recommendations in the 
legislative arena, you know, recognizing that it is really an 
Iraqi Government decision that needs to be made for them to 
move forward in a self-governing environment.
    Mr. Courtney. Well, it seems the situation that I always 
think is analogous is northern Ireland. You had a situation 
where the British Government spent 20 years occupying an area 
where there was a sectarian conflict. A lot of the things that 
we see in Iraq today look awful familiar. I mean, a peace wall 
was in the middle of Belfast; we have walls going up in 
Baghdad.
    But the fundamental issues of power-sharing, again, between 
two sectarian groups was never able to get any traction in the 
Stormont Parliament. There were elections that were held in 
northern Ireland year-in and year-out, but the political 
process was not capable with dealing with the fundamental 
issues that were keeping the two sides apart.
    And it took an outside strategy of a peace process, the 
Mitchell Commission, to come in and actually force the parties 
to get serious about resolving these issues, which, again, the 
normal political process--again, I mean, they had municipal 
elections, they were sending members to the London Parliament, 
as well as the Belfast Parliament.
    And I just feel that, at this point, we are sort of in a 
dead-end, in terms of expecting a parliament whose own 
political support was questionable to begin with, because of 
the number of groups that were boycotting the elections, is 
somehow being capable of really moving forward on the political 
benchmarks.
    Mr. Dodaro. No, I understand your concern. And we provided 
some examples of where they have moved and where they still 
need to be done. And I guess my belief, I mean, whatever 
decisions are going to be made have to be those types of 
decisions that are going to be accepted by the Iraqi citizens 
and have the confidence in. So I am not sure--you know, that is 
an area that I think is outside the scope of our normal advice.
    Mr. Courtney. But I have to say, I mean, for you to present 
a report that says it is time for a new strategy, it sorts of 
begs the question about, well, what is the strategy? And, to 
me, it just seems that the political aspect of your report, 
which accurately describes the nonmovement in terms of some of 
these issues, really cries out for some suggestions.
    And, as I said, if the British Government were still 
relying on the Stormont Parliament to resolve the issues that 
were separating the parties over a period of 30 years there, we 
wouldn't have the Good Friday Peace Accords. I mean, it took a 
different approach, again, using the leverage that outside 
forces had in northern Ireland to really create real change 
there.
    And I would hope that GAO would help us in terms of filling 
in the blank about what that new political strategy would be.
    Mr. Christoff. Sure, if I could just make some comments.
    In moving forward in trying to articulate a new strategy, 
or an updated strategy, there are other actors that I agree 
have to be factored in. The United Nations (U.N.) is playing 
some role in Iraq right now. It is helping to set up the 
provincial elections. But there are still opportunities, 
perhaps, where the U.N. could do more.
    I also refer you to the International Compact for Iraq. 
This was a document that the Iraqi Government developed in 
partnership with a whole host of countries, in which Iraq 
agreed to make progress in terms of the political, legislative, 
and economic areas in anticipation of further debt reduction--
debt reduction that was offered by the Paris Club. They also 
have to adhere to bylaws that the International Monetary Fund 
has established to try to control inflation within Iraq.
    So I think you do have a host of international actors that 
have played varying roles in the past, that should be 
considered for either additional or continuing roles in a 
future and an updated strategy--U.N., International Monetary 
Fund (IMF), as well as many of the neighboring countries that 
Iraq still owes most of its debt to.
    Mr. Courtney. But it still seems we are stuck with the 
parliament as the key actor, with that answer.
    But I yield back, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Courtney.
    The Chair now recognizes the gentleman from Texas, Mr. 
Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gene and Joe, who asked you to do this report?
    Mr. Dodaro. Basically, we have, since the Iraq conflict got 
started, since we were getting a lot of congressional requests 
in to be able to do the work, we decided that because of the 
broad interest in the work, we would do this under GAO, the 
Comptroller General's authority, to initiate evaluations and to 
provide the reports more broadly.
    Mr. Conaway. So that the scope restrictions were self-
imposed? In other words, no reference to Provincial 
Reconstruction Teams (PRTs), no reference to United States 
Agency for International Development (USAID), no reference to 
training teams, no reference to the new ambassadors that have 
been appointed. I mean, there seems to be some glaring stuff 
out there that does play a role on what you are doing, but you 
chose to ignore all of that, I guess.
    Mr. Dodaro. No, that is not exactly true at all. We have 
efforts under way to look at the provincial reconstruction 
teams. I will ask Joe to explain what we are doing. I mean, we 
have other efforts under way. This was a particular snapshot in 
a period of time.
    Mr. Conaway. Okay. So it is not inclusive?
    Mr. Dodaro. No. I mention the work we are going to be 
issuing on the oil----
    Mr. Conaway. Sure. This report is a month old. How stale is 
the data you based it on? In other words, when did you finish 
the field work, and then when did you start writing the report?
    Mr. Dodaro. We updated the data--for example, the attack 
data I gave you today in my oral statement was as of last 
month. So I attempted to update----
    Mr. Conaway. It is in this report?
    Mr. Dodaro. It is in my testimony, yes. It is in the 
testimony. The testimony updated some of the data that was 
declassified, and we were able to include in there, so it is up 
to date.
    Mr. Conaway. Okay. I am a Certified Public Accountant (CPA) 
and constantly get the question, who audits the auditor? Your 
recommendation is that the State Department and the Defense 
Department have not, in effect, don't have a plan, don't have a 
strategy for Iraq beyond yesterday afternoon. And yet you are 
telling us this report is not inclusive of the other reports 
that you are talking about going on and the data that might be 
used to evaluate this.
    What is your benchmark as to--now, obviously, State and 
Defense told you they do have plans.
    Mr. Dodaro. Right.
    Mr. Conaway. And you have disagreed with them.
    How do you set your framework up to say, in judgment of the 
folks who were paid to do that, ``No, you are not doing it''? 
Help us understand how you came to the conclusion that their 
plan is not there.
    Mr. Dodaro. Well, a couple of things. I mean, the New Way 
Forward plan was expected to last for a 12- to 18-month period 
of time, which has not elapsed. So that is one issue.
    The second issue is that the U.N. mandate authorizing the 
United States to be in Iraq expires at the end of this calendar 
year. So, obviously, a new framework needs to be put in place, 
much of which is being debated right now. I mean, so those 
parameters are likely to change.
    And we also have a classified report that we have issued, 
which we are going to discuss with you in the closed sessions, 
that discusses some of the other limitation that we put in 
place.
    We also reference there the fact that we had made 
recommendations to build the ministerial capacity and also to 
develop an energy plan in prior reports that we have done. We 
have referenced, Congressman, in this report, 140 reports we 
have issued on Iraq since the conflict began, and those inform 
us going forward. So we have done a lot of work in this area.
    Mr. Conaway. I mean, a report issued in 2004 on the 
circumstances then is relevant today?
    Mr. Dodaro. Well, in terms of understanding where we were. 
As a CPA, you understand the baseline data and comparing one 
year to the next year in terms of the report. So it is 
important to have the perspective, particularly in terms of 
some of the strategies that were tried during those periods of 
time that didn't work.
    One of the reasons that the New Way Forward was put in 
place was to address some of the deficiencies in the prior 
strategies that had been put in place before. And, as we 
pointed out, some gains were made as a result of revising that 
strategy.
    So I think, absent a revision on the strategies over these 
past few years, you know, there would be questions whether we 
would be having the gains we have had.
    Mr. Conaway. We have had gains then?
    Mr. Dodaro. Yes.
    Mr. Conaway. How do you assess the change in Administration 
that will happen in January and the impact? I mean, how do you 
put together a comprehensive plan today, knowing that in 
January there is going to be a whole new team? How do you do 
that?
    Mr. Dodaro. Well, there are a couple of perspectives. And 
this happens throughout the Federal Government as part of our 
system of operations. And, to me, the real important points 
are, number one, the U.N. Mandate expires before the 
Presidential transition will take place. It expires at the end 
of this calendar year. So something is going to have to be 
decided in that arena going forward.
    We are spending a lot of money. We are talking about 
several months between now and the time that happens. And then 
the new Administration will have to get its team in place and 
to make decisions.
    So, as part of our system of government, there is always a 
plan to have a smooth transition in the reins of power from one 
Administration to the other. And a lot depends on the 
professionalism of the people who prepare from a stewardship 
standpoint to prepare that next Administration. And I think it 
is a responsible thing to do.
    Mr. Conaway. Yeah, but you wouldn't expect a dramatic 
change in strategy to be effected now, versus the pretty 
standard stuff, do the status of forces agreement, continue to 
push on the Iraqis to do the legislative stuff, and continue to 
push on them to develop resources on infrastructure, own 
resources on security, all those kinds of things. You wouldn't 
expect some sort of dramatic change apart from that, would you?
    Mr. Dodaro. Our recommendation calls for an updated 
strategy, an updated one.
    Mr. Conaway. All right, Gene, thank you.
    Yield back.
    Mr. Taylor. The Chair thanks the gentleman from Texas.
    The Chair recognizes the gentleman from Iowa, Mr. Loebsack.
    Mr. Loebsack. Thank you, Mr. Chair.
    Thanks to both of you for being here today and the report 
and all the work that you put into that.
    I just want to raise again the issue of the Sons of Iraq 
and then, after that, the Sons of Basra, but beginning with the 
Sons of Iraq.
    Your report does talk about how they have contributed, 
obviously, to the fight against al Qaeda in Iraq (AQI), and 
also that many of these were members, if not most, members of 
the Sunni insurgency, and that some have not reconciled with 
the Government of Iraq and could once again become a danger.
    And you mentioned the tribalism issue. There are many folks 
out there now, obviously, and in the past but now, who are 
concerned about a potential resurgence of tribalism, if you 
will, just sort of looking forward, depending on how this goes.
    And I would like you to talk a little bit about, sort of, 
following up on some of the previous questions, sort of, what 
steps do you believe should be taken in developing a strategy 
going forward to ensure that the Sons of Iraq and the 
Government of Iraq continue as partners in security going 
forward?
    Mr. Dodaro. Let me ask Joe.
    Do you want to take that?
    Mr. Christoff. I think in terms of the Sons of Iraq, there 
still has to be some decisions about how many do you integrate 
into the Iraqi Security Forces and how many do you integrate 
into local employment?
    Those are going to be tough questions, predominantly 
because of the fact that you have, quite frankly, a Shi'a 
government that may not be welcoming of additional Sunni forces 
that, for now, are local neighborhood forces in Anbar province. 
You also have extremely high unemployment rates in Anbar 
province. And so, those are going to be difficult but important 
decisions that are going to have to be made in developing what 
DOD has called for--that is, a cohesive transition plan.
    So, not only for the ones that have been around, the Sons 
of Iraq, but for those that are emerging, the Sons of Basra--
are they going to be part of the ISF? Local employment? Who is 
going to pay for them up to that point in time?
    Mr. Loebsack. Can you flesh that out a little bit more? We 
were talking about a little bit with Congressman Taylor at the 
outset here, but the role of the tribal groups too. Because, 
obviously, these are interlinked.
    Mr. Christoff. That is really an interesting question with 
the tribal groups, because, in many regards, the Sons of Iraq 
are tied to the tribal groups; they are tribal in nature. And 
they saw their tribe as being their predominant motivating 
factor, more than the Sunni ties in general.
    What you are seeing, particularly in Anbar province, is 
this desire on the part of the tribal leaders to participate in 
the political process, to have representation on the provincial 
councils right now. Right now there isn't representation.
    So I think it is going to be a very interesting dynamic, 
not only from a security or military point of view in 
integrating those under arms, but the leaders who do want to 
participate within a political process. That is why those 
provincial elections are important as well.
    Mr. Loebsack. Do you see potential conflict among those 
tribal leaders? Because, obviously, in the past, there has been 
that conflict. We, obviously, here in America, didn't pay much 
attention to it in earlier times. But do you have any fear that 
some of those traditional tribal conflicts that were played out 
before that were often submerged, obviously, by Saddam Hussein 
in his security system, that those may play out again?
    Mr. Christoff. I don't know if we--we really haven't looked 
into that in detail, but I think you have hit on the issue of 
it is no longer looking at Sunnis, Shi'as, and Kurds; it is 
looking at the underlying tribes associated with each of those 
groups.
    Mr. Loebsack. Right. Right.
    Talk about the Sons of Basra, if you will. Because I think 
this is a relatively new development, is it not? That is not 
something we have heard that much about in this committee.
    Mr. Christoff. You will hear more about that in the closed-
door session.
    Mr. Loebsack. Okay. So, at this point, you are unwilling to 
talk a little bit more about that in open session?
    Mr. Christoff. The vast majority of information that we 
have is classified.
    Mr. Loebsack. Okay. All right. Thank you very much.
    And I yield back my time.
    Mr. Taylor. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from Indiana, Mr. 
Ellsworth.
    Mr. Ellsworth. Thank you, Mr. Chairman.
    Thank you, gentleman, for being here.
    When you sit in enough of these hearings, you start 
reflecting back on things you have heard in the other hearings. 
And I can remember that we talked about that we weren't going 
to be rebuilding the country. And I see on the front cover, it 
says, ``Stabilizing, Rebuilding Iraq.'' And I can remember 
Secretary Rice sitting there at that table one day and saying 
that we have to teach the Iraqis how to spend their money. And 
I thought, as Mr. Hayes said, I am not sure our country is the 
best one, with a $9 trillion debt.
    But can you talk about--one of the things, when Chairman 
Taylor and I went to Iraq, one of the issues we jumped into was 
the corruption. And can you tell me--I was noticing here that 
some of the reports, people talking about that 30 percent of 
the oil production that was going on in Iraq was peeled off and 
going other places than where it should be, and just general 
corruption. I see here on one of the pages it says we made a 
$2.7 billion U.S. investment in oil production, and yet it is 
still not up to snuff of what they should be producing in our 
goals and their goals.
    Does GAO have a general sense on where we are going with 
the country? I know we have talked about it with some of the 
reconstruction teams, that the sheikhs are still demanding a 
cut when they are building a bridge or a road. Any thoughts on 
that or glimmers of hope in that area, that the country is 
becoming more fair-minded and doing things the way we would 
normally do them?
    Mr. Christoff. The oil area is a really interesting area. 
Here is an area in which Iraq is sitting on 115 billion barrels 
of proven reserve--enormous potential in terms of exports. Yet 
one of the problems that relates to corruption in Iraq in the 
oil sector is the fact that very little is metered. The 
production sites have no meters. There is only one meter that 
is at the port in southern Iraq that tries to keep track of the 
exports.
    And when you look at the audits that have been done by the 
International Advisory Monitoring and Board, they are actually 
now showing statistics in which are there are three different 
projections of how much Iraq might have produced, because we 
lack this metering. Our Energy Information Administration has 
one projection, the State Department uses the Ministry of Oil 
projections, and there is a third projection by the Central 
Bank of Iraq. And they are all different.
    And oftentimes that difference is the result of the poor 
metering or, also, the diversions that you refer to. The State 
Department talks about 10 to 30 percent of oil that is being 
produced could be diverted onto the black market or smuggled 
out of the Iraq.
    It continues to remain a problem. And the United Nations 
called for meters under the oil-for-food program in 1999, and 
they still haven't been installed.
    Mr. Ellsworth. Do we know where that is going? The black 
market and other countries--any idea what countries they are 
talking about? Do we have any idea where that is going?
    Mr. Christoff. Your intelligence agencies do.
    Mr. Ellsworth. You just mentioned the Central Bank of Iraq. 
Is there an existing and functioning Central Bank of Iraq right 
now?
    Mr. Christoff. Yes, there is.
    Mr. Ellsworth. Good. That is good to know.
    Any other comments on just general--with the American 
dollars that are going, like I said, it was disturbing to me to 
hear that, as part of the contracting process, that there was 
still a lot of challenges in that, that people were expecting 
to get a cut to build a bridge. Are we seeing improvement in 
that area, or are we still having the challenges there?
    Mr. Christoff. Well, we are transitioning now. Probably 90 
percent of the billions that you all obligated for 
construction, 90 percent has been obligated. So for all 
effective purposes, it is the Iraqis' effort to step up to the 
plate with a sizable bid of oil revenues that they will get 
this year. And the report that we are going to issue shortly 
will tell you the rather large surplus that is expected this 
year as a result of the increase in prices, the world market 
prices, as well as the increase, modest increases in 
productions that the Iraqi Oil Ministry has been able to 
achieve this year.
    Mr. Ellsworth. Thank you both.
    Mr. Chairman, I would yield back.
    Mr. Taylor. Thank you.
    The Chair recognizes an Iraqi war vet, Mr. Murphy of 
Pennsylvania.
    Mr. Murphy. Thank you, Mr. Chairman.
    Thank you, gentlemen, for testifying today. We appreciate 
your service to our country.
    I want to kind of piggyback on my colleague from Indiana's 
comments and your remarks about the transition and getting 
Iraqis to step up to the plate.
    Your report states that, between 2005 and 2007, Iraq only 
spent 24 percent of its budget for its own reconstruction 
efforts. However, we, the United States America, have spent 
$169 million in 2005 and 2006, another $395 million in 2007 and 
2008 toward helping Iraqi ministries stabilize and rebuild 
Iraq.
    So I know we have said--Mr. Ellsworth and I are Blue Dog 
Democrats. We have said repeatedly in this committee that, you 
know, the Iraqis will not stand up for their country unless 
Americans stop doing the heavy lifting for them. We need to 
hold them accountable.
    So my question is, how can we best pressure Iraq to spend 
their own money to rebuild their country? I know you advocate a 
new strategy. But in layman's terms to the American public here 
and to us in this committee, what can we do to best get them 
off the sidelines and, as you said, step up to the plate?
    Mr. Dodaro. Well, I think the best approach, Congressman, 
is the approach that has been taken, is to not provide 
additional funding for those activities and to shift the burden 
to them for funding those activities, and to provide technical 
support and assistance.
    I wouldn't underestimate moving to a different structure 
and what type of technical capacities that they are going to 
need to be able to do that. We have seen that in other 
governments around the world.
    So I think placing the responsibility with them for funding 
these activities and for the United States to provide technical 
assistance and support to build their infrastructure and the 
ministries is a reasonable approach going forward.
    Mr. Murphy. Do you have any additional comment, sir?
    Mr. Christoff. No.
    Mr. Murphy. Okay. I want to turn now to some of the metrics 
they used earlier. I know there was a comment from both sides 
about the metrics that we use and that we use different 
metrics.
    How about--what I have not seen is, has there been polling, 
whether it is classified or unclassified, that is being done 
with Government taxpayers' money in Iraq?
    Mr. Dodaro. In Iraq? I believe the Defense 9010 report, the 
latest one in June, Congressman, had some polling information 
in it, in terms of polling Iraqi citizens' views on some of 
services that have been provided. We will be happy to provide 
that for the record to you. I don't have the statistics off the 
top of my head, but there has been some polling done.
    Mr. Murphy. Okay. And does that polling also describe 
whether or not the Iraqi people want us there? You know, we all 
understand the political dynamics that are going on right now, 
with Prime Minister Malaki and the 2010 date. We also know it 
is an election time for the Prime Minister. And we also 
understand that, since 2005, when he was running the last time, 
he said he would share oil revenues with the Sunnis, the 
minorities. He said it in 2005, 2006, 2007, and 2008, and he 
has yet to do it. So I think a lot of us in this committee 
rightfully are frustrated, and we are demanding some 
accountability here, and we appreciate your assistance on that.
    Fifty-four percent, in your report--I want to go now to 
electricity--54 percent of the Iraqi electricity demand is 
being met. Obviously, electricity is a major quality-of-life 
issue for the everyday Iraqi and their frustration that, 
because they don't have electricity, they are blaming us. 
Whether that is rightful or not, they are blaming us.
    In your opinion, how important is the inability of the 
Iraqi Government to provide these basic services, like potable 
water, like electricity, to the Iraqi people? And how much is 
their inability to do these basic services fueling the 
insurgency against our American forces?
    Mr. Dodaro. On the first part of your question, I would 
say, obviously, the inability to provide central basic services 
reflects poorly on the government. Basically, governments 
exist, as you know, to provide those type of services, so it is 
obviously very important that those issues be attended to and 
appropriate investments be made.
    I would ask Joe if he has any comments on the second part 
of your question, Congressman.
    Mr. Christoff. Well, I clearly agree. Providing essential 
services to the Iraqi people is an indication of whether or not 
they have faith in their government. And if you have been to 
Iraq and you have flown over Baghdad low, for example, in the 
electricity area, you see generators everywhere, you see 
strings of transmission lines. That is Iraqis trying to take 
things in their own hands, because they, in some regards, have 
lost faith in the national grid to provide them with the kind 
of basic electricity that they want. They want electricity 24 
hours a day, not the 8 in Baghdad or the 10 throughout the rest 
of the country.
    Mr. Murphy. I think for the American taxpayer at home and 
the American citizen, I mean, they are looking at, okay, 
electricity, basic services, 54 percent of the need is getting 
met. There is a frustration. You are talking about the faith in 
your government. You are looking at also, at the same time, 
quoting your study, saying they are only spending less than a 
quarter of their budget on reconstruction that they promised 
their people and us that they are going to spend on.
    Mr. Christoff. Right.
    Mr. Murphy. And so, again, the connection--and I think the 
American people are starting to get, that many of us get here, 
is that because they are not performing, it is affecting the 
lives of the American warfighter that is serving our country 
over there. And I think that is why you are getting a lot of 
this frustration here.
    You know, we appreciate your time, wrapping your arms 
around this issue and helping guide us on this accountability. 
But I think for the people out there to understand that we are 
trying to do everything in our power to fight for our American 
warfighter, whether it is getting them Mine Resistant Ambush 
Protected (MRAP) vehicles in there this year, or whether it was 
making sure they got the 3.5 percent pay increase, or making 
sure to put the pressure on the Iraqi Government to step up to 
the plate and stand up for the Iraqi people, because it is 
affecting the lives of our soldiers as well. So we appreciate 
your assistance on that.
    I yield back to the chairman.
    [The information referred to can be found in the Appendix 
beginning on page 167.]
    Mr. Taylor. The Chair thanks the gentleman from 
Pennsylvania.
    The Chair now recognizes the gentleman from Washington 
State, Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I want to thank the GAO from coming and helping us out. I 
know sometimes we can, kind of, get tough with you all because 
your job is sometimes to tell us things we don't want to hear, 
and, as a result, we get our backs up a little bit because we 
are not used to having people tell us what we don't want to 
hear. But that is your job, and I appreciate it very much.
    With regards to the security issues and the security 
forces, Iraq security forces, I noted that in your report, page 
four, in developing Iraqi security forces you note some of the 
numbers about how many have been trained versus assigned. And 
you also note the DOD reports the number of security force 
units deemed capable of performing operations without coalition 
assistance has remained at 10 percent.
    And I apologize for not being here, and if this has been 
answered already, I will ask you to summarize that answer.
    But it seems to me that, for the last five years, we have 
been asking questions about the Iraqi security forces and their 
ability, particularly the military, to be specific, the 
military, their ability to do operations on their own. And even 
if that number, the total number of security forces and 
military folks are increasing, and even if the number of 
brigades that can operate independently is increasing, it still 
seems to me that we are forgetting something very important 
here. Although they might be in a lead, would they know where 
they were supposed to go to take a military action without the 
logistical and communications and intel support they are 
getting from coalition forces, namely the United States?
    And I am curious if you have looked at that particular 
question, as opposed to just looking at raw numbers of security 
forces, and trying to understand what it really means to 
operate independently or even in the lead. Operating in the 
lead does not mean you are operating by yourself, and I think 
we confuse that around here and give it more credit than it is 
worth, frankly.
    Mr. Dodaro. That is one of the reasons, Congressman--I will 
ask Joe to elaborate--why we focus on the operational readiness 
assessment levels. Because the level one is really the level 
that is judged to operate the most independently, and that 
hasn't changed over the period of time.
    So the logistical, the intelligence, the air support and 
other things that are being received from the U.S. and the 
coalition assistance are still very, very important. And unless 
that number in level one changes over a period of time, there 
are still varying degrees of dependency there.
    And I would ask Joe to elaborate on it.
    So that is why we try to provide both to the Congress, both 
raw numbers of what are available, what are trained, and then 
what DOD's assessments are. Those are not GAO's assessments. 
Those are DOD assessments, and properly so.
    Mr. Christoff. And our November 2007 report actually deals 
with this very question. Not only what is the definition of 
``independent'' and their emerging and changing definitions of 
``independent,'' but also the fact that even those forces that 
are at the highest readiness level still, in some respects, are 
dependent upon the United States for logistics, for movement, 
for command and control, and intelligence.
    Mr. Larsen. Well, I think we were told last week or the 
week before that, perhaps by the middle of next year, there 
would be enough trained Iraqi security forces that would have 
met that goal. And that seemed to be a positive headline. But 
what I had failed to discern from his comments was a repeat of 
what he said the last time he was here, which was really 
talking about the fact that they have basically a hollow 
military--that is, lots of privates and corporals, a few 
generals and nothing in between, very little in between. And it 
might be 5 to 10 years before they achieve that. The second 
point was about logistics, intel and communications, and it 
would be 5 to 10 years before they develop an organic 
capability within their own military.
    Is that something you agree with or disagree with? Have you 
had reports based on those issues?
    Mr. Dodaro. Yes, we have issued some reports on the 
dependency there, but also this is an issue that we are 
planning to discuss in the next session with you as well.
    Mr. Larsen. Okay.
    Mr. Dodaro. So I hope you are able to join us, sir.
    Mr. Larsen. Yeah, I have a little bit of time.
    And I see the red light is on, but if I could just make a 
point.
    Mr. Taylor. Mr. Larsen, if you notice, there is no one 
around to get mad at you.
    Mr. Larsen. Yes, I noticed that.
    So if there is no one else, Mr. Chairman, I will continue. 
Just quickly then, perhaps in the next session. Are we going to 
that immediately after this? At noon?
    Mr. Taylor. 12:30.
    Mr. Larsen. Perhaps we can talk about the integration of 
U.S.-approved militias into the military, like the Sons of Iraq 
and discuss that next.
    Mr. Dodaro. Yes.
    Mr. Larsen. I just also note, Mr. Chairman--and my last 
trip to Iraq was last year, last September. You noted the 
various factors that have brought down violence, and all those 
are important factors. Another important factor is the 
relationship between concrete barriers and the security level. 
I mean, if you put concrete barriers 10 feet high on every 
street in Baghdad, security is going to increase. And that is 
what Baghdad looks like. Again, we tend to talk about security 
in Iraq like things are wide open and people can travel 
anywhere they want. They can't. They can't. There is a direct 
relationship between the height and number of concrete barriers 
and the security situation. The test will be when those 
concrete barriers come down and whether the security holds. 
That will be the test.
    So I am not--I mean, it is great that violence is down. Any 
time there are fewer people getting killed, that is great; I 
support that. But the test will be when those barriers come 
down, not when they are up.
    Mr. Taylor. Gentlemen, you touched on a couple of things I 
would like you to follow up on.
    If my memory is right, around Easter of 2005, the Kuwaitis 
informed our Government that they would no longer supply all 
the fuel for free, and that they started charging us the market 
price for fuel.
    I am curious, and have a very vivid memory of seeing the 
convoys lining up just before dark leaving Kuwait, hundreds of 
trucks, knowing that those guys had very long drives through 
very dangerous territory. And although we are grateful for the 
Kuwaitis' incredible cooperation, although we want to 
financially reward them for that cooperation by buying fuel 
from them, to what extent are we trying to buy fuel in Iraq 
from the Iraqis? To what extent do we try to buy it at the 
price that they sell it to their own people for?
    And last is one of my colleagues, and I hate to put him on 
the spot, but one of my colleagues has been using the number 
that the number of gallons per GI per day is somewhere in the 
20's. I can't remember if it is 21 gallons a day or 26 gallons 
a day, but it is a fairly substantial price tag just to keep 
them warm in the winter, cool in the summer, getting them from 
place to place safely. So we are talking about a substantial 
amount of money here.
    So to what extent are we trying to buy fuel in Iraq at the 
same price the Iraqi Government charges their own citizens?
    Mr. Dodaro. Mr. Chairman, we can find that out and provide 
it for the record. We are not prepared to address that right 
now, but we can get those answers and provide them to you.
    [The information referred to can be found in the Appendix 
beginning on page 163.]
    Mr. Taylor. Okay. For the record, you raised a great point 
because obviously someone is metering that oil. That tanker is 
being paid by how much oil he transports. That tanker, when he 
gets to a refinery somewhere in the world, is unloading that 
and keeping very detailed records because at $130 a barrel they 
are not going to be giving that stuff away.
    So to what extent, knowing how important all of this is--it 
is the life boat of Iraq, it is going to fund all of those 
projects that Mr. Murphy and Mr. Hunter said have to happen for 
this country to stand up on their own feet--to what extent have 
you encountered our Government insisting on some form of 
accountability?
    It is my understanding that somewhere in the neighborhood 
of 80 percent of all the Iraqi oil flows through two terminals 
offshore. It is not like you don't have a--so you do have a 
very narrow choke point to measure it. To what extent are we 
insisting on that?
    Mr. Christoff. I don't know. Good question.
    Mr. Dodaro. Again, that is an excellent question. We will 
look into that and get you an answer.
    [The information referred to can be found in the Appendix 
on page 163.]
    Mr. Taylor. Well, it just strikes me as something pretty 
simple that we ought to be asking. And if the Administration 
isn't going to come forward and do that, it is something this 
Congress--if we were looking at a timeline, that is something 
that should absolutely ought to have a timeline.
    Mr. Dodaro. That is a very reasonable question, Mr. 
Chairman. I agree completely with you. And we will get you an 
answer.
    Mr. Taylor. Okay. What is a reasonable amount of time to 
expect for an answer on those questions I just asked you?
    Mr. Dodaro. Let us do some--we will get back to you with a 
timeline, but as soon as we can.
    Mr. Taylor. Sir, how about doing better than that? How 
about giving me a time specific that I can count on?
    Mr. Dodaro. We will, within the next two weeks, give you an 
answer.
    Mr. Taylor. That is great. Okay.
    Well, you have about 40 minutes to go eat your lunch, and 
we will see you back at 12:30.
    Mr. Dodaro. Okay. Thank you.
    Mr. Taylor. Thank you very much.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 23, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 23, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5135.001
    
    [GRAPHIC] [TIFF OMITTED] T5135.002
    
    [GRAPHIC] [TIFF OMITTED] T5135.003
    
    [GRAPHIC] [TIFF OMITTED] T5135.004
    
    [GRAPHIC] [TIFF OMITTED] T5135.005
    
    [GRAPHIC] [TIFF OMITTED] T5135.006
    
    [GRAPHIC] [TIFF OMITTED] T5135.007
    
    [GRAPHIC] [TIFF OMITTED] T5135.008
    
    [GRAPHIC] [TIFF OMITTED] T5135.009
    
    [GRAPHIC] [TIFF OMITTED] T5135.010
    
    [GRAPHIC] [TIFF OMITTED] T5135.011
    
    [GRAPHIC] [TIFF OMITTED] T5135.012
    
    [GRAPHIC] [TIFF OMITTED] T5135.013
    
    [GRAPHIC] [TIFF OMITTED] T5135.014
    
    [GRAPHIC] [TIFF OMITTED] T5135.015
    
    [GRAPHIC] [TIFF OMITTED] T5135.016
    
    [GRAPHIC] [TIFF OMITTED] T5135.017
    
    [GRAPHIC] [TIFF OMITTED] T5135.018
    
    [GRAPHIC] [TIFF OMITTED] T5135.019
    
    [GRAPHIC] [TIFF OMITTED] T5135.020
    
    [GRAPHIC] [TIFF OMITTED] T5135.021
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 23, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5135.022
    
    [GRAPHIC] [TIFF OMITTED] T5135.023
    
    [GRAPHIC] [TIFF OMITTED] T5135.024
    
    [GRAPHIC] [TIFF OMITTED] T5135.025
    
    [GRAPHIC] [TIFF OMITTED] T5135.026
    
    [GRAPHIC] [TIFF OMITTED] T5135.027
    
    [GRAPHIC] [TIFF OMITTED] T5135.028
    
    [GRAPHIC] [TIFF OMITTED] T5135.029
    
    [GRAPHIC] [TIFF OMITTED] T5135.030
    
    [GRAPHIC] [TIFF OMITTED] T5135.031
    
    [GRAPHIC] [TIFF OMITTED] T5135.032
    
    [GRAPHIC] [TIFF OMITTED] T5135.033
    
    [GRAPHIC] [TIFF OMITTED] T5135.034
    
    [GRAPHIC] [TIFF OMITTED] T5135.035
    
    [GRAPHIC] [TIFF OMITTED] T5135.036
    
    [GRAPHIC] [TIFF OMITTED] T5135.037
    
    [GRAPHIC] [TIFF OMITTED] T5135.038
    
    [GRAPHIC] [TIFF OMITTED] T5135.039
    
    [GRAPHIC] [TIFF OMITTED] T5135.040
    
    [GRAPHIC] [TIFF OMITTED] T5135.041
    
    [GRAPHIC] [TIFF OMITTED] T5135.042
    
    [GRAPHIC] [TIFF OMITTED] T5135.043
    
    [GRAPHIC] [TIFF OMITTED] T5135.044
    
    [GRAPHIC] [TIFF OMITTED] T5135.045
    
    [GRAPHIC] [TIFF OMITTED] T5135.046
    
    [GRAPHIC] [TIFF OMITTED] T5135.047
    
    [GRAPHIC] [TIFF OMITTED] T5135.048
    
    [GRAPHIC] [TIFF OMITTED] T5135.049
    
    [GRAPHIC] [TIFF OMITTED] T5135.050
    
    [GRAPHIC] [TIFF OMITTED] T5135.051
    
    [GRAPHIC] [TIFF OMITTED] T5135.052
    
    [GRAPHIC] [TIFF OMITTED] T5135.053
    
    [GRAPHIC] [TIFF OMITTED] T5135.054
    
    [GRAPHIC] [TIFF OMITTED] T5135.055
    
    [GRAPHIC] [TIFF OMITTED] T5135.056
    
    [GRAPHIC] [TIFF OMITTED] T5135.057
    
    [GRAPHIC] [TIFF OMITTED] T5135.058
    
    [GRAPHIC] [TIFF OMITTED] T5135.059
    
    [GRAPHIC] [TIFF OMITTED] T5135.060
    
    [GRAPHIC] [TIFF OMITTED] T5135.061
    
    [GRAPHIC] [TIFF OMITTED] T5135.062
    
    [GRAPHIC] [TIFF OMITTED] T5135.063
    
    [GRAPHIC] [TIFF OMITTED] T5135.064
    
    [GRAPHIC] [TIFF OMITTED] T5135.065
    
    [GRAPHIC] [TIFF OMITTED] T5135.066
    
    [GRAPHIC] [TIFF OMITTED] T5135.067
    
    [GRAPHIC] [TIFF OMITTED] T5135.068
    
    [GRAPHIC] [TIFF OMITTED] T5135.069
    
    [GRAPHIC] [TIFF OMITTED] T5135.070
    
    [GRAPHIC] [TIFF OMITTED] T5135.071
    
    [GRAPHIC] [TIFF OMITTED] T5135.072
    
    [GRAPHIC] [TIFF OMITTED] T5135.073
    
    [GRAPHIC] [TIFF OMITTED] T5135.074
    
    [GRAPHIC] [TIFF OMITTED] T5135.075
    
    [GRAPHIC] [TIFF OMITTED] T5135.076
    
    [GRAPHIC] [TIFF OMITTED] T5135.077
    
    [GRAPHIC] [TIFF OMITTED] T5135.078
    
    [GRAPHIC] [TIFF OMITTED] T5135.079
    
    [GRAPHIC] [TIFF OMITTED] T5135.080
    
    [GRAPHIC] [TIFF OMITTED] T5135.081
    
    [GRAPHIC] [TIFF OMITTED] T5135.082
    
    [GRAPHIC] [TIFF OMITTED] T5135.083
    
    [GRAPHIC] [TIFF OMITTED] T5135.084
    
    [GRAPHIC] [TIFF OMITTED] T5135.085
    
    [GRAPHIC] [TIFF OMITTED] T5135.086
    
    [GRAPHIC] [TIFF OMITTED] T5135.087
    
    [GRAPHIC] [TIFF OMITTED] T5135.088
    
    [GRAPHIC] [TIFF OMITTED] T5135.089
    
    [GRAPHIC] [TIFF OMITTED] T5135.090
    
    [GRAPHIC] [TIFF OMITTED] T5135.091
    
    [GRAPHIC] [TIFF OMITTED] T5135.092
    
    [GRAPHIC] [TIFF OMITTED] T5135.093
    
    [GRAPHIC] [TIFF OMITTED] T5135.094
    
    [GRAPHIC] [TIFF OMITTED] T5135.095
    
    [GRAPHIC] [TIFF OMITTED] T5135.096
    
    [GRAPHIC] [TIFF OMITTED] T5135.097
    
    [GRAPHIC] [TIFF OMITTED] T5135.098
    
    [GRAPHIC] [TIFF OMITTED] T5135.099
    
    [GRAPHIC] [TIFF OMITTED] T5135.100
    
    [GRAPHIC] [TIFF OMITTED] T5135.101
    
    [GRAPHIC] [TIFF OMITTED] T5135.102
    
    [GRAPHIC] [TIFF OMITTED] T5135.103
    
    [GRAPHIC] [TIFF OMITTED] T5135.104
    
    [GRAPHIC] [TIFF OMITTED] T5135.105
    
    [GRAPHIC] [TIFF OMITTED] T5135.106
    
    [GRAPHIC] [TIFF OMITTED] T5135.107
    
    [GRAPHIC] [TIFF OMITTED] T5135.108
    
    [GRAPHIC] [TIFF OMITTED] T5135.109
    
    [GRAPHIC] [TIFF OMITTED] T5135.110
    
    [GRAPHIC] [TIFF OMITTED] T5135.111
    
    [GRAPHIC] [TIFF OMITTED] T5135.112
    
    [GRAPHIC] [TIFF OMITTED] T5135.113
    
    [GRAPHIC] [TIFF OMITTED] T5135.114
    
    [GRAPHIC] [TIFF OMITTED] T5135.115
    
    [GRAPHIC] [TIFF OMITTED] T5135.116
    
?

      
=======================================================================


                  WITNESS RESPONSES TO QUESTIONS ASKED

                           DURING THE HEARING

                             July 23, 2008

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Dodaro. In response to your question on what has GAO's 
recommended to improve U.S. operations and help advance U.S. goals in 
Iraq? and GAO's progress report on Iraq. \1\ Over the past few years, 
we have made several recommendations to improve strategies and plans 
that guide U.S. Military and civilian efforts in stabilizing and 
rebuilding Iraq.
---------------------------------------------------------------------------
    \1\ GAO Securing, Stabilizing, and Rebuilding Iraq: Progress 
Report: Some Gains Made, Updated Strategy Needed, GAO-08-1021T 
(Washington, D.C.: July 23, 2008).
---------------------------------------------------------------------------
    Update U.S. Strategic Plan for Iraq: In our recent Iraqi progress 
report, we recommended that the Department of Defense (DOD) and the 
State Department, in conjunction with relevant U.S. agencies, develop 
an updated strategy for Iraq that defines U.S. goals and objectives 
after July 2008 and addresses the long-term goal of achieving an Iraq 
that can govern, defend, and sustain itself. The desirable 
characteristics of an effective national strategy are purpose, scope, 
and methodology; detailed discussion of problems, risks, and threats; 
the desired goal, objectives, activities, and outcome-related 
performance measures; description of future costs and resources needed; 
delineation of U.S. government roles, responsibilities, and 
coordination mechanisms; and a description of the strategy's 
integration among and with other entities. We reaffirm the need for an 
updated strategy for several reasons.

        <bullet>  First, much has changed in Iraq since January 2007, 
including some of the assumptions upon which The New Way Forward was 
based. For example, violence in Iraq is down but U.S. susrge brigades 
have left and over 100,000 armed Sons of Iraq remain; Iraq did not meet 
late 2007 target dates to pass legislation and assume control over 
local security; and the United States is currently negotiating a status 
of forces agreement with Iraq to replace United Nations (UN) Security 
Council Resolutions.

        <bullet>  Second, The New Way Forward is an incomplete 
strategic plan because it articulates goals and objectives for only the 
near-term phase that ended in July 2008.

        <bullet>  Third, the goals and objectives of The New Way 
Forward and the phase that follows it are contained in disparate 
documents such as presidential speeches, White House fact sheets, and a 
National Security Council (NSC) PowerPoint presentation, rather than in 
a strategic planning document similar to the National Strategy for 
Victory in Iraq, the prior U.S. strategy for Iraq.

        <bullet>  Fourth, the limited documents that describe the phase 
after July 2008 do not specify the administration's long-term strategic 
goals and objectives in Iraq or how to achieve them.

    Improve Operational Planning: GAO has also recommended that the 
administration improve the operational planning for U.S. military and 
civilian operations in Iraq.

        <bullet>  In a classified report,\2\ we identified areas in 
which the Multinational Force-Iraq (MNF-I)/U.S. Embassy Baghdad Joint 
Campaign Plan--the operational plan that guides all U.S. military and 
civilian operations in Iraq--had limitations with respect to DOD's 
joint operation planning doctrine.\3\ For example, joint doctrine 
states that effective operational planning cannot occur without a clear 
understanding of the conditions that must exist to end military 
operations and draw down forces. Further, according to doctrine, a 
campaign plan should provide an estimate of the time and forces 
required to reach the conditions for mission success or termination. In 
our classified report, we found that DOD should, among other things, 
identify and prioritize the conditions necessary for the continued 
drawdown of U.S. forces in Iraq.
---------------------------------------------------------------------------
    \2\ GAO, Stabilizing Iraq: DOD Should Identify and Prioritize the 
Conditions Necessary for the Continued Drawdown of U.S. Forces in Iraq, 
GAO-08-700C (Washington, D.C.: June 23, 2008).
    \3\ In contrast with a strategic plan, a campaign plan is developed 
at the operational level. Activities at this level link tactics and 
strategy by establishing operational objectives needed to achieve 
strategic objectives, sequencing events to achieve the operational 
objectives, initiating actions, and applying resources to bring about 
and sustain these events. The development of a campaign plan, according 
to doctrine, should be based on suitable and feasible national 
strategic objectives formulated by the President, the Secretary of 
Defense, and the Chairman of the Joint Chiefs of Staff--with 
appropriate consultation with additional NSC members, other U.S. 
government agencies, and multinational partners.

        <bullet>  We also identified weaknesses in other U.S. plans for 
Iraq. For example, although multiple U.S. agencies have programs to 
develop the capacity of Iraqi ministries, U.S. efforts lack an 
integrated strategy. \4\ Such strategy should include a clear purpose, 
scope, and methodology; delineation of U.S. roles, responsibilities, 
coordination, and integration; desired goals, objectives, and 
activities; performance measures; and a description of costs, resources 
needed, and risk. In addition, although the United States has spent 
billions of dollars to rebuild Iraq's oil and electricity sectors, Iraq 
lacks an integrated plan for the energy sector. \5\ We recommended that 
State work with the Iraqi government to develop integrated plans for 
ministry capacity development and the energy sector, so that they 
provide clear guidance for U.S. efforts, manage risk, and identify 
needed resources.
---------------------------------------------------------------------------
    \4\ GAO, Stabilizing and Rebuilding Iraq: U.S. Ministry Capacity 
Development Efforts Need an Overall Integrated Strategy to Guide 
Efforts and Manage Risk, GAO-08-117 (Washington, D.C: Oct. 1, 2007).
    \5\ GAO, Rebuilding Iraq: Integrated Strategic Plan Needed to Help 
Restore Iraq's Oil and Electricity Sectors, GAO-07-677 (Washington, 
D.C.: May 15, 2007).

    We have also made several recommendations to improve overall U.S. 
military readiness and cost reporting on ongoing operations in support 
of the Global War on Terrorism, including in Iraq and Afghanistan. For 
example, in order to improve military readiness, we recommended that 
DOD develop an overall plan for rebuilding readiness, including 
establishing goals and investment priorities. We also recommended that 
the Army revise and adjust its training strategy to include a plan to 
support full-spectrum training during extended operations, and clarify 
the capacity needed to support the modular force. \6\ Further, DOD 
should identify mission-essential services provided by contractors and 
include them in planning, as well as develop doctrine to help the 
services manage contractors supporting deployed forces. In order to 
improve cost reporting and program assessment, we recommended, among 
other things, that DOD require that units that execute Commander's 
Emergency Response Program projects provide project monitoring to 
ensure that contractors have met the contract specifications. \7\ 
Additionally, we recommended that DOD revise the cost reporting 
guidance for the Global War on Terrorism so that large amounts of 
reported obligations are not shown in ``other'' miscellaneous 
categories. \8\
---------------------------------------------------------------------------
    \6\ GAO, Military Readiness: Impact of Current Operations and 
Actions Needed to Rebuild Readiness of US. Ground Forces, GAO-08-497T 
(Washington, D.C.: Feb. 14, 2008).
    \7\ GAO, Military Operations: Actions Needed to Better Guide 
Selection for Commander's Emergency Response Program and Improve 
Oversight in Iraq, GAO-08-736R (Washington, D.C.: June 23, 2008).
    \8\ GAO, Global War on Terrorism: Reported Obligations for the 
Department of Defense, GAO-08-853R (Washington, D.C.: June 13, 2008).

    In addition, we have made numerous recommendations to improve 
logistical and other support to U.S. forces in Iraq. For example, in 
December 2003 we reported on a number of logistical shortfalls during 
initial military operations \9\ and in a subsequent report in April 
2005 made recommendations to improve DOD's and the military service's 
efforts to provide needed critical supplies and parts to the troops in 
Iraq.\10\ We also reported on the lengthy process to field truck armor 
by the Army and Marine Corps and made recommendations to establish a 
process to document and communicate all urgent wartime funding 
requirements for supplies and equipment at the time they are identified 
and the disposition of funding decisions.\11\ We also reported on 
issues related to Army and Marine Corps prepositioned equipment and 
``reset'' of equipment \12\ and made recommendations to correct 
weaknesses identified in DOD's equipment reconstitution cost estimating 
and tracking processes.\13\ We also reported and made recommendations 
on the need to improve the management and accountability of DOD efforts 
to mitigate the threat of Improvised Explosive Devices (IED).\14\ In 
September 2008, we issued a report on DOD's planning for the 
reposturing of U.S. forces in Iraq, and made recommendations to DOD to 
efficiently and effectively retrograde its materiel and equipment from 
Iraq, as well as correct the incompatibility weaknesses in the various 
data systems used to maintain visibility over equipment and materiel 
while they are in transit.\15\ In this report, we also identified 
several issues that will affect the development of plans for 
reposturing U.S. forces from Iraq, including
---------------------------------------------------------------------------
    \9\ GAO, Defense Logistics: Preliminary Observations on the 
Effectiveness of Logistics Activities during Operation Iraqi Freedom, 
GAO-04-305R (Washington, D.C.: Dec. 18, 2003).
    \10\ GAO, Defense Logistics: Actions Needed to Improve the 
Availability of Critical Items During Current and Future Operations, 
GAO-06-160 (Washington, D.C.: Apr. 8, 2005).
    \11\ GAO, Defense Logistics: Several Factors Limited the Production 
and Installation of Army Truck Armor during Current Wartime Operations, 
GAO-08-160 (Washington, D.C.: Mar. 22, 2006).
    \12\ GAO, Defense Logistics: Preliminary Observations on Equipment 
Reset Challenges and Issues for the Army and Marine Corps, GAO-06-604T 
(Washington, D.C.: Mar. 30, 2006).
    \13\ GAO, Defense Management: Processes to Estimate and Track 
Equipment Reconstitution Costs Can Be Improved, GAO-05-293 (Washington, 
D.C.: May 5, 2005).
    \14\ GAO, Defense Management: More Transparency Needed over the 
Financial and Human Capital Operations of the Joint Improvised 
Explosive Device Defeat Organization, GAO-08-342 (Washington, D.C.: 
Mar. 6, 2008).
    \15\ GAO, Operation Iraqi Freedom: Actions Needed to Enhance DOD 
Planning for Reposturing of US. Forces from Iraq, GAO-08-930, 
(Washington, D.C.: Sept. 10, 2008).

        <bullet>  guidance for the management of hazardous materials 
and waste and the disposition of property, which could affect the time 
---------------------------------------------------------------------------
and cost of closing installations in Iraq;

        <bullet>  guidance and plans for reposturing of contractors 
from Iraq;

        <bullet>  accountability and disposition of contractor-managed 
government-owned property;

        <bullet>  the possibility of restrictive conditions on the use 
of facilities in Kuwait and other neighboring countries;

        <bullet>  availability of wash racks and the number of customs 
inspectors in Kuwait;

        <bullet>  capacity of military-owned and -operated transports 
and convoy security assets, including limits on the main supply route;

        <bullet>  increased demand for access to mental health care 
providers;

        <bullet>  infrastructure requirements of returning units; and

        <bullet>  requirements for training and equipment reset to 
restore readiness.

    We have also made numerous recommendations to improve the oversight 
and management of DOD service contracts used to support military 
operations in Iraq. For example, we recommended that DOD appoint a 
high-level focal point within the department dedicated to leading DOD's 
efforts to improve contract management and oversight, develop a 
database to provide visibility over all contractor support to deployed 
forces, develop lessons learned, and develop training standards, so 
that military commanders and other senior leaders who may deploy to 
locations with contractor support have the knowledge and skills needed 
to effectively manage contractors.\16\ We also reviewed a key equipment 
maintenance contract in Kuwait and made recommendations to improve 
oversight of this contract.\17\ Finally, we also have made 
recommendations to improve the oversight and coordination of private 
security contractors in Iraq.\18\ [See page 10.]
---------------------------------------------------------------------------
    \16\ GAO, Military Operations: High-Level DOD Action Needed to 
Address Long-standing Problems with Management and Oversight of 
Contractors Supporting Deployed Forces, GAO-07-145 (Washington, D.C.: 
Dec. 18, 2006).
    \17\ GAO, Defense Logistics: The Army Needs to Implement an 
Effective Management and Oversight Plan for the Equipment Maintenance 
Contract in Kuwait, GAO-08-316R (Washington, D.C.: Jan. 22, 2008).
    \18\ GAO, Rebuilding Iraq: DOD and State Department Have Improved 
Oversight and Coordination of Private Security Contractors in Iraq, but 
Further Actions Are Needed to Sustain Improvements, GAO-08-966 
(Washington, D.C.: July 31, 2008).
---------------------------------------------------------------------------
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. TAYLOR
    Mr. Dodaro. In answer to your question what extent has GAO tracked 
Iraqi oil revenue and how much of it is flowing back to the central 
government? How much is leaving the country?
    In August 2008, we reported on Iraq's revenues and expenditures 
from 2005 through 2008 and on Iraq's budget surplus from 2005 through 
2007.\19\ In summary, we found the following:
---------------------------------------------------------------------------
    \19\ GAO, Stabilizing and Rebuilding Iraq: Iraqi Revenues, 
Expenditures and Surplus, GAO-08-1031 (Washington, D.C: Aug. 5, 2008).
---------------------------------------------------------------------------

        <bullet>  From 2005 through 2007, the Iraqi government 
generated an estimated $96 billion in cumulative revenues, of which 
crude oil export sales accounted for about $90.2 billion, or 94 
percent. For 2008, GAO estimates that Iraq could generate between $73.5 
billion and $86.2 billion in total revenues, with oil exports 
accounting for between $66.5 billion to $79.2 billion. Projected 2008 
oil revenues could be more than twice the average annual amount Iraq 
generated from 2005 through 2007. These projections are based on actual 
sales through June 2008 and projections for July to December that 
assume an average export price from $96.88 to $125.29 per barrel and 
oil export volumes of 1.89 to 2.01 million barrels per day.

        <bullet>  From 2005 through 2007, the Iraqi government spent an 
estimated $67 billion on operating and investment activities. Ninety 
percent was spent on operating expenses, such as salaries and goods and 
services, and the remaining 10 percent on investments, such as 
structures and vehicles. The Iraqi government spent only 1 percent of 
total expenditures to maintain Iraq- and U.S.-funded investments such 
as buildings, water and electricity installations, and weapons. While 
total expenditures grew from 2005 through 2007, Iraq was unable to 
spend all its budgeted funds. In 2007, Iraq spent 80 percent of its $29 
billion operating budget and 28 percent of its $12 billion investment 
budget. For 2008, GAO estimates that Iraq could spend between $35.3 
billion and $35.9 billion of its $49.9 billion budget.

        <bullet>  As of December 31, 2007, the Iraqi government had 
accumulated financial deposits of $29.4 billion, held in the 
Development Fund for Iraq and central government deposits at the 
Central Bank of Iraq and Iraq's commercial banks. This balance is the 
result, in part, of an estimated cumulative budget surplus of about $29 
billion from 2005 to 2007. For 2008, GAO estimates a budget surplus of 
between $38.2 billion to $50.3 billion. If spent, a proposed Iraqi 
supplemental budget of $22 billion could reduce this projected surplus. 
[See page 12.]

    Mr. Dodaro. Regarding the plans for moving U.S. troops out of Iraqi 
palaces.
    As of August 2008, the United States was negotiating the return of 
Iraqi premises as part the Status of Forces Agreement, according to the 
Deputy Chief of Mission, U.S. Embassy Baghdad. Some palaces are already 
being planned for return to the Iraqi government. For example, Embassy 
Baghdad is planning to officially return the Presidential Palace in the 
Green Zone by December 31, 2008. According to the Deputy Chief of 
Mission, because the United States will still have to decommission the 
Palace, it may be several more months before the Iraqis actually occupy 
these premises. [See page 12.]
    Mr. Dodaro. Regarding your question to what extent are we trying to 
buy fuel in Iraq at the same price the Iraqi government charges their 
own citizens?
    Our response to this question is based on information that DOD 
designated as For Official Use Only (FOUO). We submitted our response 
to your staff in a separate correspondence on August 6, 2008. [See page 
32.]
    Mr. Dodaro. Regarding your question to what extent is the U.S. 
government insisting on metering at Iraqi oil refineries?
    Metering is needed to achieve financial transparency and 
accountability over oil resources in Iraq. As GAO reported in May 
2007,\20\ an improved metering system has been a U.S. and international 
donor priority since 2004 but has faced delays in its implementation. 
In 1996, the UN first cited the lack of oil metering when Iraq was 
under UN sanctions. In March 2004, the International Advisory and 
Monitoring Board (IAMB), charged with overseeing the Development Fund 
for Iraq, recommended the expeditious installation of metering 
equipment, in accordance with standard oil industry practices. 
According to IAMB, in June 2004, the Coalition Provisional Authority 
had approved a budget to replace, repair, and calibrate the metering 
system on Iraq's oil pipeline network and to contract the metering of 
Iraq's oil resources. However, the oil metering contract was not 
completed due to security and technical issues. In June 2006, IAMB 
reported that the Iraqi government had entered into an agreement with 
Shell Oil Company to serve as a consultant for the Ministry of Oil on 
metering and calibrating that would include the establishment, within 
the next 2 years, of a measuring system for the flow of oil, gas, and 
related products within Iraq and in export and import operations. GAO 
had recommended that the State Department work with the Ministry of Oil 
to set milestones and assign resources to expedite efforts to establish 
an effective metering system for the oil sector. State responded that 
the Iraqi government, and not the U.S. government, was responsible for 
taking actions on this recommendation.
---------------------------------------------------------------------------
    \20\ GAO, Rebuilding Iraq: Integrated Plan Needed to Help Restore 
Iraq's Oil and Electricity Sectors, GAO-07-677 (Washington, D.C.: May 
15, 2007).
---------------------------------------------------------------------------
    In 2008, after we issued our report, IAMB published a report that 
found that Iraqi government progress in installing meters had been 
slow.\21\ Some metering had been installed at oil terminals; however, 
there was no metering in the oil fields. Further, some refineries 
reported that even when they had metering systems, these systems were 
not utilized because they required calibration or repair. According to 
IAMB's auditors, these systems needed to be calibrated in accordance 
with the Committee of Calibration and Measurement. The auditors found 
that the absence of an overall comprehensive system of controls over 
oil resulted in unreconciled differences between oil extraction, 
production, export sales, and internal usage. In July 2008, a State 
Department oil expert stated that the U.S. government completed its 
metering project at the Al-Basrah oil port in southern Iraq. [See page 
33.]
---------------------------------------------------------------------------
    \21\ International Advisory and Monitoring Board for Iraq, 
Development Fund For Iraq: Statement of Cash Receipts and Payments for 
the Year Ended 31 December 2007 (Baghdad, July 2008).
---------------------------------------------------------------------------
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY DR. GINGREY
    Mr. Dodaro. In response to what progress has the United States made 
in helping Iraq provide electricity to the Iraqi people, as compared 
with the level of electricity under Saddam Hussein's regime and shortly 
after the initial phase of the U.S. military operation?
    Since March 2003, the administration has used a number of different 
metrics for determining progress in providing electricity to the Iraqi 
people. For example, we reported that as of May 2004, the available 
electrical service in Iraq's provinces--as measured in hours of power 
per day, by province--had not improved substantially from the situation 
before the war but was more equitably distributed among the 
provinces.\22\ Although some improvement in service was made earlier in 
2004, the situation deteriorated due to the worsening security 
situation and increasing demand as of May 2004. At that time, 8 of 
Iraq's 18 provinces had electricity for an average of 8 or fewer hours 
a day, and 9 had electricity for between 9 and 15 hours daily (see fig. 
1).
---------------------------------------------------------------------------
    \22\ GAO, Rebuilding Iraq: Resource, Governance, Essential Services 
and Oversight Issues, GAO-04-902R (Washington, D.C.: June 28, 2004).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As of August 2008, the Departments of State and Defense were using 
the Iraqis' ability to meet demand from the national grid as indicator 
of progress in the electricity sector. Comparable supply and demand 
data for March 2003 are not available. Figure 2 illustrates the trend 
in supply from the national grid and estimated demand since January 1, 
2004. According to the State Department, daily electricity demand for 
August 25 to August 31 was 7 percent above the same period last year. 
Daily supply from the grid was 2 percent below the year-earlier period 
and met 47 percent of demand, compared with 51 percent for the year-
earlier period. [See page 14.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. MURPHY
    Mr. Dodaro. Regarding your question has the U.S. Government funded 
public opinion polls--classified or unclassified--in Iraq?
    The U.S. government has funded public opinion polls in Iraq. For 
example, a November 2006 DOD report contains Multinational Force-Iraq 
polling data on the Iraqi public's perceptions of security, as well as 
State Department polling data on the Iraqi public's confidence in the 
Iraqi government's ability to improve the situation in Iraq.\24\ 
Further, in the past, the U.S. Agency for International Development 
funded Iraq Quality of Life Survey Reports through its Local Governance 
Program that provided important information about the level of access 
to water and sanitation services and Iraqi satisfaction with those 
services.\25\ Contractors, working with local Iraqis as survey 
enumerators, surveyed Iraqis about a number of issues, including their 
access to and satisfaction with essential services. Although certain 
areas could not be surveyed due to security constraints, the survey 
reports provided data for each of Iraq's 18 governorates, as well as 
nationwide data. [See page 30.]
---------------------------------------------------------------------------
    \24\ DOD, Measuring Stability and Security in Iraq: Report to 
Congress in Accordance with the Department of Defense Appropriations 
Act 2007, Section 9010, P.L. 109-289 (Washington, D.C.: Nov. 2006).
    \25\ GAO, Rebuilding Iraq: U.S. Water and Sanitation Efforts Need 
Improved Measures for Assessing Impact and Sustained Resources for 
Maintaining Facilities, GAO-05-872 (Washington, D.C.: Sept. 7, 2005).
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
